<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                        THURSDAY, APRIL 15, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 3:22 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nelson (chairman) presiding.
    Present: Senators Nelson, Pryor, and Murkowski.

                    GOVERNMENT ACCOUNTABILITY OFFICE

STATEMENT OF GENE L. DODARO, ACTING COMPTROLLER GENERAL

                OPENING STATEMENT OF SENATOR BEN NELSON

    Senator Nelson. The subcommittee will come to order.
    Good afternoon to everybody, and welcome. We meet this 
afternoon to take testimony on the fiscal year 2011 budget 
request for the Government Accountability Office (GAO), the 
Government Printing Office (GPO), and the Congressional Budget 
Office (CBO).
    I would like to welcome our witnesses here today--Gene 
Dodaro, Acting Comptroller General; Bob Tapella, Public 
Printer; and Doug Elmendorf, Director of the Congressional 
Budget Office.
    I also want to welcome my good friend and ranking member, 
Senator Murkowski, as well as the other members of the 
subcommittee who will perhaps be joining us, Senator Pryor and 
Senator Tester. Senator Murkowski and I have enjoyed working 
with one another on these items of the legislative branch, and 
I know I look forward to continuing that effort.
    This is our third budget hearing of this fiscal year, and I 
would like to reiterate a few concerns that were raised during 
our first two hearings. I am disappointed that this 
subcommittee has once again been presented with a fairly large 
budget increase request in fiscal year 2011.
    And the fact remains that this country is in economic 
turmoil, and the American taxpayers simply are not ready to 
tolerate unnecessary Government spending. And some believe that 
any kind of Government spending is probably unnecessary, but 
particularly at a time of high major unemployment. And I have 
said repeatedly that I intend to do my best to hold the 
legislative branch flat this year.
    I believe that spending restraints start at home. We need 
to lead by example on this subcommittee, and we can't do that 
by appropriating large increases to our agencies, even at a 
time when they may be totally justified.
    I think the President sent the message loudly and clearly 
in his State of the Union Address this year, noting that 
families across the country are tightening their belts and 
making tough decisions. The Federal Government must do the 
same, he said, and he announced a 3-year freeze on nonsecurity 
discretionary Government spending. And I believe we must do the 
same with this subcommittee as well.
    Having said that, I want to also say that we still 
appreciate the contributions made by each of your agencies in 
assisting Congress in our service to the country. We are truly 
grateful for the work you do, and we look forward to hearing 
from you and to discussing your budget requests.
    I must say that I doubt there has ever been a time that 
staff for the Senate have ever had to work more lengthy hours 
and weekends than recently, and I am sure it is true with your 
departments as well. And so, at a time when we are looking to 
reward, it seems like the rewards are sort of fleeting away 
from us.
    Mr. Dodaro, GAO is requesting an overall increase of 8 
percent in fiscal year 2011, which includes funding for the 
continuation of your mandated requirements under the American 
Recovery and Reinvestment Act (ARRA), which I understand 
accounts for roughly one-half of your increase. And I look 
forward to discussing the specifics of your budget request, as 
well as GAO's latest findings on the American Recovery and 
Reinvestment Act effort.
    Mr. Tapella, I understand that GPO will soon be celebrating 
150 years of service to the Federal Government, and I would 
like to congratulate you and your entire staff on this 
accomplishment. GPO is requesting an increase of $19 million, 
or 13 percent, over current year. And I understand that much of 
this increase is directly related to the Federal Digital System 
(FDsys) and a few other information technology upgrades and 
infrastructure projects, which I look forward to discussing 
with you a little later on.
    Dr. Elmendorf, it is good to see you again. CBO is 
requesting $47.2 million in fiscal year 2011, an increase of 
roughly $2 million, or 4.7 percent, over the current year. And 
I understand that you feel this number is somewhat skewed by 
supplemental funding CBO received in fiscal year 2009, which 
you feel impacted your fiscal year 2010 appropriation.
    And I know better than to argue the numbers with you.
    So I look forward to discussing your budget and other 
obstacles that you face and your colleagues face.
    Now I would like to turn over to Ranking Member Senator 
Murkowski for her remarks.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Mr. Chairman.
    And my remarks will be very brief this morning because they 
mirror so closely those that you have just made.
    I would like to begin by welcoming the three of you--Mr. 
Dodaro, Mr. Tapella, Dr. Elmendorf. I think it is fair to say 
that you each, within your respective areas, are doing well by 
us, and we appreciate that. We do recognize that we task you 
with a lot, and I know certainly, Dr. Elmendorf, the requests 
that have been made on CBO just this past year with all of the 
legislative initiatives as they relate to healthcare have been 
daunting. And I don't know if you have any more hours in your 
day than I do, but I commend you for the work that you and all 
your staff have done.
    As the chairman has mentioned, each of you are requesting 
within your offices increases. The GAO increase at 7.9 percent, 
GPO at 13 percent, and then CBO, an increase of $2.1 million, 
or 4.7 percent. And we recognize that while you may feel that 
they are entirely justified and may be much smaller than you 
had wanted, that these are significant increases within the 
legislative branch budget.
    And the chairman's words, of course, come as no surprise, 
that we are looking for ways to demonstrate leadership by 
ensuring that our own budgets are tightened and trying to 
reduce those costs. So I will be curious to hear this afternoon 
how GAO, GPO, and CBO are prepared to make the adjustments in 
the fiscal year 2011 budget requests that have been submitted 
and do look forward to working with all of you to ensure that 
we can arrive on some mutually agreeable solutions to how we 
trim back the costs while at the same time providing the very 
essential services that all of you and your staffs provide.
    Thank you, Mr. Chairman.
    Senator Nelson. Thank you.
    I was going to call on Senator--my colleague to the right, 
but he assures me that he wants not to be associated with the 
skinflints to his left.
    Now I would like to call on Mr. Dodaro for your opening 
statement, followed by Mr. Tapella, and of course, then by Dr. 
Elmendorf. And if it is possible to keep your opening 
statements brief, around 5 minutes, we would obviously receive 
the rest of your statement for the record if there are 
additional statements to be made.

                  SUMMARY STATEMENT OF GENE L. DODARO

    Mr. Dodaro. Thank you very much Mr. Chairman, Ranking 
Member Senator Murkowski, Senator Pryor. I appreciate the 
opportunity to be here today to discuss GAO's budget request.
    As the investigative arm of the Congress and the auditor of 
the Government's financial condition, I certainly appreciate 
and commend your objectives toward fiscal prudence. And in that 
light, GAO's budget request, as you mentioned, Mr. Chairman, is 
really in two parts.
    The first part of our request is a 4.1 percent increase in 
our base appropriation that is intended to just maintain our 
existing staff levels in order to support our work for every 
standing committee of the Congress and about 70 percent of the 
subcommittees.
    When I came before this subcommittee in 2008, my first year 
as acting Comptroller General, I mentioned we were at our 
lowest staffing level in GAO's history. Thanks to the support 
of this subcommittee, we have augmented that slightly over the 
last couple of years. We are well positioned to help the 
Congress deal with the range of domestic and international 
challenges that it faces across the spectrum of its activities. 
This increase is just to maintain our current staffing level to 
support the Congress.
    We also have been given new responsibilities in the 
healthcare legislation. There will be many more 
responsibilities in the financial regulatory reform 
legislation. And in the latest increase to deal with the debt 
ceiling increase, we were given an annual mandate to recommend 
duplication and other areas where Government spending could be 
eliminated.
    In addition to GAO's normal responsibilities of responding 
to about 1,000 requests a year from the Congress, in the 
Troubled Asset Relief Program (TARP), we were given 
responsibilities to report every 90 days. Since we were funded 
through reimbursements from the Treasury Department, we will be 
in good shape to follow all those activities through until AIG, 
General Motors, and other arrangements work their way out and 
the Government returns them to their normal status.
    The Recovery Act is a little bit different. That act, as 
you know, is now estimated to be about $862 billion. We were 
charged with recurring responsibilities on bimonthly reviews of 
the use of that money by selected States and localities and 
quarterly reviews of the reports concerning the amount of jobs 
that were created and retained. So these are recurring 
responsibilities.
    In recognition of the large amount of spending, and it 
being out of the normal appropriation cycle when the 
legislation was passed, Congress gave us $25 million. That 
money expires at the end of fiscal year 2010, so by September 
this year we will have spent that money.
    Now the money to the States and localities will continue in 
fiscal years 2011 and 2012 and beyond, out to almost fiscal 
year 2019, according to CBO's estimates. That means that there 
will be over $120 billion that will still flow to the States 
and localities in fiscal year 2011 and beyond. The second part 
of our request provides funds for us to be in a position to 
continue to meet our mandates of bimonthly reviews.
    I am also concerned that the risk level associated with 
some of the spending in the next several years will be at least 
as great as, if not a little bit higher than, the spending that 
has occurred to date because there will be new programs and 
greatly expanded amounts of money for other programs. So I 
think it is important for us to be in a position to do what 
Congress asked us to do, which is to be out in the States and 
localities making sure the money is spent appropriately for its 
intended purpose.
    In closing, I know very well, as my colleagues do, the 
difficult fiscal challenges that await the country and the 
Congress, and there are a lot of difficult decisions. GAO is an 
important resource in helping Congress eliminate waste, 
increase revenues, and ensure programs are more efficient and 
effective. My colleagues and I are committed to making sure 
that whatever investment you make in GAO, that the dedicated 
people of GAO will give you a good return on that investment.

                           PREPARED STATEMENT

    I know you will give careful consideration to our request, 
and I look forward to addressing your questions when 
appropriate.
    Senator Nelson. Thank you, Mr. Dodaro.
    [The statement follows:]

                  Prepared Statement of Gene L. Dodaro

    Mr. Chairman, Ranking Member Murkowski, and Members of the 
Subcommittee: I appreciate the opportunity to be here today to discuss 
the U.S. Government Accountability Office's (GAO) budget request for 
fiscal year 2011. At the outset, I want to thank all the members of the 
subcommittee for your continued support of GAO. With your support of 
our fiscal years 2009 and 2010 funding levels, we have been able to 
address the steady decline in staffing that GAO had experienced since 
fiscal year 2003 and begin to reverse this trend by restoring our 
staffing capacity.
    This has put us in a better position to assist the Congress in 
confronting the many difficult challenges facing the nation. In fiscal 
year 2009, GAO supported congressional decisionmaking and oversight on 
a range of critical issues, including the government's efforts to help 
stabilize financial markets and address the most severe recession since 
World War II. In addition to providing oversight for the 2008 Economic 
Stabilization Act and the American Recovery and Reinvestment Act of 
2009 (Recovery Act), we continued to provide the Congress updates on 
programs that are at high risk for waste, fraud, abuse, and 
mismanagement or are in need of broad reform, and delivered advice and 
analyses on a broad array of pressing domestic and international issues 
that demand urgent attention and continuing oversight. These include 
modernizing the regulatory structure for financial institutions and 
markets to meet 21st century demands; controlling escalating healthcare 
costs and providing more effective oversight of medical products; 
restructuring the U.S. Postal Service to ensure its financial 
stability; and improving the Department of Defense's management 
approaches to issues ranging from weapons system acquisitions to 
accounting for weapons provided to Afghan security forces. Overall, we 
responded to requests from every standing committee of the Senate and 
the House and over 70 percent of their subcommittees.
    As a knowledge-based organization, our ability to timely assist the 
Congress as it addresses the nation's challenges depends on our ability 
to sustain our current staffing levels. We are submitting for your 
consideration a prudent request for $601 million for fiscal year 2011, 
which will allow us to maintain our capacity to assist the Congress in 
addressing a range of financial, social, economic, and security 
challenges going forward. This amount represents a 4.1 percent increase 
($22.6 million) to maintain our fiscal year 2010 staffing level for 
``base operations,'' cover mandatory pay and uncontrollable costs, and 
reinvest savings from nonrecurring costs and efficiencies to further 
enhance our productivity and effectiveness. We have also requested a 
3.8 percent increase ($21.6 million) to maintain the current staffing 
level of 144 FTEs to continue mandated Recovery Act oversight beyond 
the expiration of the funding we received to help offset the cost of 
this new responsibility. The total requested increase of 7.9 percent 
will allow us to continue to be responsive in supporting congressional 
mandates and requests.

 THE NATION'S CHALLENGES SHAPE GAO'S FISCAL YEAR 2011 EXPECTED WORKLOAD

    GAO stands ready to continue assisting the Congress as it tackles 
the wide array of challenges facing the nation. Our past performance is 
evidence of the critical role our dedicated staff play in helping the 
Congress and the American people better understand issues, both as they 
arise and over the long term. These include:
  --Assessing the government's continuing response to the current 
        economic situation, including: assessing the effectiveness of 
        financial and regulatory reform efforts and plans to ensure the 
        stability of the overall banking, housing, and financial 
        markets; conducting oversight of proposed programs to boost the 
        economy, including job expansion and investments in 
        infrastructure; and continuing to perform our responsibilities 
        under the Recovery Act, including bimonthly reviews of how 
        selected states and localities use the funds provided and 
        quarterly reviews of recipient reports on job creation.
  --Reviewing the government's efforts to identify and act on credible 
        threats to homeland and border security, including to 
        commercial aviation and seaports as well as those involving 
        biological, chemical, and nuclear dimensions.
  --Reviewing U.S. efforts related to Afghanistan, Iraq and other 
        regions in conflict, including reviewing the effect of drawing 
        down resources in Iraq, providing more resources to 
        Afghanistan, and retooling operations in Pakistan.
  --Supporting health care financing and reform efforts through 
        analyses of Medicare, Medicaid, and other health programs.
  --Identifying elements to help address the nation's financial 
        challenges including Social Security, tax reform, retirement, 
        and disability programs; opportunities to reduce spending; and 
        reducing the gap between taxes owed and taxes collected.
  --Performing specialized studies and technology assessments of a wide 
        range of science and technology issues, such as climate change, 
        the challenges of developing sophisticated space and defense 
        systems, and green energy.
  --Focusing on major areas that are at high-risk, including the U.S. 
        Postal Service's financial condition, oversight of food and 
        drug safety, and cybersecurity efforts.
    GAO is uniquely positioned to support the Congress. For instance, 
pressures to reduce the federal deficit following an economic recovery 
will require a greater need for the type of analyses that are a 
hallmark of GAO. We recently were tasked by statute to provide an 
annual report addressing overlap and duplication among federal 
programs. Also, through our long-standing focus on high-risk programs 
and other activities, we can identify for policymakers the agencies and 
programs that require priority attention. These include helping focus 
on ways to help reduce improper federal payments, estimated at $98.7 
billion in fiscal year 2009, and the $290 billion estimated tax gap. In 
addition, our dedicated and multidisciplinary staff have substantive 
agency and program expertise, as well as expertise in conducting 
financial and performance audits, program evaluations, policy analyses, 
and technology assessments.
    In March 2010, GAO issued an exposure draft of our 2010-2015 
Strategic Plan for serving the Congress, which describes our proposed 
goals and strategies for supporting the Congress and the nation as the 
United States undergoes a period of transformation, daunting 
challenges, and opportunities. Our framework is attached as appendix I.

               GAO CONTINUES TO BE AN EMPLOYER OF CHOICE

    Recognizing that GAO's accomplishments are a direct result of our 
dedicated workforce, management continuously strives to maintain a work 
environment that promotes employee well-being and productivity, and to 
be a world-class professional services organization. In both 2007 and 
2009, GAO ranked second in the ``Best Places to Work'' rankings 
sponsored by the Partnership for Public Service. We are also proud of 
the current results from our 2009 annual employee feedback survey which 
indicate that employee satisfaction continues to increase. Importantly, 
the results of the 2009 annual employee feedback survey--the highest 
scores to date--provided GAO management with valuable information on 
how we can continue to attract and retain top talent.
    GAO regularly seeks and values the input we receive from our 
employee organizations: the Diversity Advisory Council, Employee 
Advisory Council, and GAO Employees Union, International Federation of 
Professional & Technical Engineers, Local 1921 (the Union). 
Collaboration with these organizations has resulted in a number of 
improvements in GAO processes, including improved field-office working 
conditions; enhanced quality-control documentation that help staff 
ensure that our practices follow GAO policy and generally accepted 
government auditing standards; and new demographic questions on the 
annual GAO employee feedback survey that allow GAO management to track 
the views of certain employee populations. Also, GAO and the Union have 
made significant progress toward developing a master collective 
bargaining agreement.
    GAO continues to make progress toward our goal to create a more 
inclusive work environment. The most recent data show that 
representation of minority groups in our workforce equals or exceeds 
the representation in the relevant civilian labor force. As of April 
2009, minorities represented about 30 percent of GAO's total workforce 
and women constituted nearly 60 percent. By comparison, in the civilian 
labor force minorities represented about 27 percent and women about 47 
percent. With our approach to continuous improvement, several areas 
merit continued attention, such as increasing the representation of 
Hispanics and the disabled in the total workforce. Looking forward, our 
action plan focuses on three areas: recruitment and hiring, staff 
development, and efforts to create a more inclusive work environment. 
We will continue to consult with the Union and all employee groups as 
we implement this action plan.
    Our fiscal year 2011 budget provides funds to continue to 
strengthen employee development and benefits programs. We have also 
identified savings and efficiencies within our budget and plan to 
reinvest these resources to implement enabling technologies, such as 
energy improvements.

                 GAO'S FISCAL YEAR 2011 BUDGET REQUEST

    As a people-intensive organization, about 80 percent of GAO's 
budget funds compensation and benefits for over 3,300 employees, with 
the balance funding mandatory operating expenses, such as rent for 
field office locations, security services, and other critical 
infrastructure services required for ongoing operations.
    GAO is requesting an increase of $22.6 million to maintain our 
current capacity to provide timely, high-quality responses to 
congressional requests for assistance, and $21.6 million to support 
staff currently working on mandated Recovery Act oversight. About 90 
percent of the requested increase supports mandatory compensation and 
benefits.
    A summary of our fiscal year 2011 request is shown in the following 
table and explained in further detail below.

                             TABLE 1.--FISCAL YEAR 2011 SUMMARY OF REQUESTED CHANGES
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                                    Cumulative
                                                                                                   percentage of
                                                                                                    change from
                        Budget category                               FTEs            Amount        fiscal year
                                                                                                  2010 to fiscal
                                                                                                     year 2011
----------------------------------------------------------------------------------------------------------------
Fiscal Year 2009 actual costs..................................           3,141        $529,526   ..............
Fiscal Year 2010 enacted level.................................           3,221         556,849   ..............
Changes to the base:
    Maintaining staff capacity.................................              49          20,444              3.7
    Nonpay inflation and annualization.........................  ..............           6,420              4.8
    Change in offsetting collections/reimbursements............  ..............          (4,225)             4.1
    Efficiencies/savings and nonrecurring costs................  ..............          (8,032)             2.3
    Resource reinvestment......................................  ..............           8,030              4.1
                                                                ------------------------------------------------
      Subtotal--changes to the base............................              49          22,637              4.1
                                                                ================================================
Recovery Act (to maintain existing staff) \1\..................             144          21,631              7.9
                                                                ------------------------------------------------
      Total appropriation--salaries and expenses...............           3,414         601,117              7.9
----------------------------------------------------------------------------------------------------------------
\1\ These staff are funded in fiscal year 2010 by Recovery Act resources provided to GAO to help offset costs
  for mandated oversight. While the oversight continues, the funds expire at the end of fiscal year 2010.

Source: GAO.

    Maintaining staff capacity includes $20.4 million to maintain our 
projected fiscal year 2010 onboard staff at a full-time equivalent 
(FTE) level of 3,270 FTEs to enable GAO to continue to meet our 
increased responsibilities in a timely manner. The requested increase 
primarily includes: the full-year cost to maintain the workforce in 
fiscal year 2011 resulting from fiscal year 2010 hiring and pay 
actions; mandatory January 2011 pay increase at 1.4 percent based on 
Office of Management and Budget guidance; and performance-based pay 
increases in lieu of executive branch General Schedule within-grade 
increases.
    Nonpay inflation and annualization includes $6.4 million to 
maintain purchasing power, sustain fiscal year 2010 operating levels, 
and cover projected inflationary increases in common carrier 
transportation costs, travel per diem rates, training, supplies and 
materials, and other essential mission-support services based on 
negotiated contracts, vendor notification, or historical trend data.
    Change in offsetting collections/reimbursements reflects an 
increase of $4.2 million in rental income and reimbursement from 
financial audits that reduces our request for appropriated funds.
    Efficiencies and nonrecurring costs reflect $8 million of 
efficiencies and nonrecurring fiscal year 2010 costs resulting from: 
technology consolidations, such as our new core human capital system 
and integrated E-Gov travel solution; and enhanced building operations, 
including the installation of a gas- and solar-powered water boiler to 
improve energy efficiency.
    Resource reinvestment reinvests $8 million of nonrecurring fiscal 
year 2010 costs and operational efficiencies to: further enhance our 
information technology programs to enhance productivity and 
effectiveness; continue to address management challenges through 
increased information and physical security, enhanced appraisal 
systems, and retention incentives; continue cyclical building 
maintenance and repairs and enhance energy efficiency; and bolster 
support for audit engagements and technology assessments.
    Recovery Act includes funds to continue the 144 FTEs necessary to 
help offset the cost to conduct the mandated oversight of the use of 
the funds provided in the Recovery Act to help ensure transparency and 
accountability. No new staff would be hired.

                           CONCLUDING REMARKS

    With the strong support of the Congress and this subcommittee, in 
fiscal years 2009 and 2010 GAO increased our staff capacity. Our fiscal 
year 2011 budget request is prudent and essential to ensure that we can 
maintain this capacity and continue to provide timely, high-quality 
assistance to the Congress in confronting the critical economic, 
financial and security challenges facing the nation.
    We have a proven track record of helping the Congress evaluate 
critical issues of national importance and improving the transparency 
and accountability of government for the American people. For example, 
our work in the banking sector provided a framework that can be used to 
help reform the financial regulatory system and to evaluate proposals 
to ensure that any new regulatory system is sufficiently comprehensive, 
addresses risks, and adequately protects consumers. Over the past 2 
fiscal years our work yielded significant results. For example, during 
this period we delivered expert testimony on average at about 250 
congressional hearings. We also documented on average over 1,300 
actions taken by agencies and the Congress in response to our 
recommendations for improvements in government services and operations 
and changes to law. In addition, we recorded on average about $50 
billion in financial benefits, resulting in a return on investment in 
fiscal year 2009 of $80 for every dollar the Congress invested in 
us.\1\
---------------------------------------------------------------------------
    \1\ For additional information on GAO's fiscal year 2009 
accomplishments, see GAO's Performance & Accountability Report, Fiscal 
Year 2009, and Summary of GAO's Performance and Financial Information, 
Fiscal Year 2009, available at [hyperlink, http://www.gao.gov/about/
strategic.html]. Examples of how GAO assisted the nation and selected 
issues on which senior GAO officials testified at congressional 
hearings in fiscal year 2009 are included in appendixes II and III.
---------------------------------------------------------------------------
    We remain committed to providing accurate, objective, nonpartisan, 
and constructive information to the Congress to help it conduct 
effective oversight and fulfill its constitutional responsibilities. I 
appreciate, as always, your careful consideration of our submission and 
look forward to discussing our proposal with you.
    Mr. Chairman, Ranking Member Murkowski, this concludes my prepared 
statement. We would be pleased to respond to any questions that you or 
other members of the subcommittee might have.
appendix i.--serving the congress and the nation: gao's strategic plan 
                               framework
    Mission.--GAO exists to support the Congress in meeting its 
constitutional responsibilities and to help improve the performance and 
ensure the accountability of the federal government for the benefit of 
the American people.
    Trends.--National Security Threats; Fiscal Sustainability 
Challenges; Economic Recovery and Growth; Global Interdependence; 
Science and Technology; Networks and Virtualization; Shifting Roles of 
Government; Demographic and Societal Change.

------------------------------------------------------------------------
                   Goals                             Objectives
------------------------------------------------------------------------
Provide Timely, Quality Service to the
 Congress and the Federal Government:
    to Address Current and Emerging         Health care needs; Lifelong
     Challenges to the Well-being and        learning; Benefits and
     Financial Security of the American      protections for workers,
     People related to                       families, and children;
                                             Financial security;
                                             Effective system of
                                             justice; Viable
                                             communities; Stable
                                             financial system and
                                             consumer protection;
                                             Stewardship of natural
                                             resources and the
                                             environment;
                                             Infrastructure.
    Respond to Changing Security Threats    Homeland security; Military
     and the Challenges of Global            capabilities and readiness;
     Interdependence involving               Advancement of U.S.
                                             Interests; Global market
                                             forces.
Help Transform the Federal Government to    Government's fiscal position
 Address National Challenges by assessing.   and options for closing
                                             gap; Fraud, waste, and
                                             abuse; Major management
                                             challenges and program
                                             risks.
Maximize the Value of GAO by Enabling       Efficiency, effectiveness,
 Quality, Timely Service to the Congress     and quality; Diverse and
 and Being a Leading Practices Federal       inclusive work environment;
 Agency in the areas of.                     Professional networks and
                                             collaboration;
                                             Institutional stewardship
                                             and resource management.
------------------------------------------------------------------------

    Core Values.--Accountability; Integrity; Reliability.
      appendix ii.--how gao assisted the nation, fiscal year 2009
    Strategic Goal 1.--Provide timely, quality service to the Congress 
and the federal government to address current and emerging challenges 
to the well-being and financial security of the American people:
  --Highlighted weaknesses in the Food and Drug Administration's 
        oversight of medical devices;
  --Helped to improve the healthcare provided wounded soldiers 
        returning home;
  --Investigated the death and abuse of children at public and private 
        schools;
  --Recommended additional oversight and controls of voluntary 
        workplace safety and health programs administered by some 
        companies;
  --Enhanced management at the Pension Benefit Guaranty Corporation;
  --Enhanced federal efforts to combat drug trafficking;
  --Identified ways the Department of Housing and Urban Development 
        could promote energy efficiency and green building in federal 
        public housing programs;
  --Informed the debate on hardrock mining reform;
  --Reported on the Environmental Protection Agency's reforms of its 
        toxic chemical assessment process;
  --Informed the Congress about the U.S. Postal Service's deteriorating 
        financial situation.
    Strategic Goal 2.--Provide timely, quality service to the Congress 
and the federal government to respond to changing security threats and 
the challenges of global interdependence:
  --Recommended actions to improve the Department of Defense's (DOD) 
        management of contractors in Iraq and Afghanistan;
  --Helped the Congress assess DOD's ability to provide trained and 
        ready forces for military operations;
  --Recommended that the State Department develop outcome measures for 
        its capacity-building program in Iraq;
  --Helped to improve DOD's accounting of weapons provided to Afghan 
        security forces;
  --Helped to strengthen aviation security through improved passenger 
        watch-list matching;
  --Developed a framework to help the Congress evaluate proposals for 
        revamping the U.S. financial regulatory system;
  --Helped to assess the implementation of TARP;
  --Informed the Congress about weaknesses in lender data that limit 
        regulators' ability to identify financial institutions at 
        higher risk of discriminatory lending practices.
    Strategic Goal 3.--Help transform the federal government's role and 
how it does business to meet 21st century challenges:
  --Helped to track how states and localities are using Recovery Act 
        funds;
  --Strengthened federal planning and preparedness efforts for the 
        influenza pandemic;
  --Helped DOD and the Department of Veterans Affairs better share 
        electronic health records;
  --Identified shortcomings in the Department of Homeland Security's 
        management of major acquisitions;
  --Tested the adequacy of the complaint intake process at the 
        Department of Labor's Wage and Hour Division;
  --Helped to reduce governmentwide improper payments;
  --Recommended ways to reduce tax noncompliance.
    Strategic Goal 4.--Maximize the value of GAO by being a model 
federal agency and a world-class professional services organization:
  --Mobilized staff quickly to conduct mandated oversight work and 
        ensure accountability of the federal assistance available 
        through the Recovery Act;
  --Contributed to enhancing the ability of the domestic accountability 
        community to prevent fraud, waste, and abuse of federal funds;
  --Helped enhance international accountability organizations' capacity 
        to implement strong professional standards by sponsoring 
        training and participating in international forums.
       appendix iii.--selected testimony issues, fiscal year 2009
    Goal 1.--Address Challenges to the Well-Being and Financial 
Security of the American People:
  --Auto industry bailout;
  --Nonprime home loans and rising foreclosures;
  --Pension Benefit Guaranty Corporation financial challenges;
  --Social Security Administration challenges with disability claims 
        processing;
  --Wildland fire management;
  --Mental health services for Hurricane Katrina's youngest victims;
  --Clean water trust fund;
  --Department of Veterans Affairs (VA) healthcare for women veterans;
  --Corporate crime and deferred prosecutions;
  --D.C. public school reform efforts;
  --Limiting United States Postal Service losses;
  --Reverse mortgages;
  --Crime victims' rights;
  --Federal Protective Service.
    Goal 2.--Respond to Changing Security Threats and the Challenges of 
Globalization:
  --U.S. strategies and plans in Iraq, Afghanistan, and Pakistan;
  --Reforming U.S. defense acquisitions;
  --Planning future army combat systems;
  --DOD's business transformation;
  --Financial regulators' oversight of large financial institutions;
  --Security and Exchange Commission enforcement resources;
  --TARP;
  --U.S. cybersecurity strategy;
  --Screening air cargo on passenger aircraft;
  --Post-Katrina Emergency Management Reform Act;
  --Climate change trade measures;
  --Small Business Administration Disaster Loan Program reforms.
    Goal 3.--Help Transform the Federal Government's Role and How It 
Does Business:
  --Recovery Act;
  --Influenza pandemic;
  --Health IT;
  --Management of DOD contractors;
  --Key National Aeronautics and Space Administration challenges;
  --U.S. government financial statements;
  --2010 Census preparations;
  --Improper federal payments to suspended businesses;
  --Offshore financial activity and tax enforcement;
  --VA and DOD electronic health records;
  --Illegal export of military technology.

                       GOVERNMENT PRINTING OFFICE

STATEMENT OF ROBERT C. TAPELLA, PUBLIC PRINTER
    Senator Nelson. Mr. Tapella.
    Mr. Tapella. Chairman Nelson, Senator Murkowski, and 
members of the subcommittee, thank you for inviting me here 
today to discuss GPO's appropriations request for fiscal year 
2011.
    I have submitted my prepared statement for the record, and 
I would just like to make a few brief remarks with your 
permission.
    I want to begin by thanking the subcommittee for your 
support for GPO's appropriations request last year, fiscal year 
2010. In addition to funding our congressional printing and 
documents distribution operations, these appropriated funds 
included working capital for critical IT projects, including 
our Federal Digital System, and Oracle financial system, as 
well as the initiation of our composition system replacement 
project.
    It also provided funds for the ongoing renovation of GPO's 
elevators, both passenger and freight. Your recommendation of 
these funds is deeply appreciated both by me and the 2,300 
employees at GPO.
    For fiscal year 2011, we are requesting a modest increase 
of 3 percent for our congressional printing and binding funds 
to cover projected volume requirements for a first session 
year. As you are aware, GPO does not control the amount of 
printing Congress requires. We simply fulfill your needs and 
use historical data to project workloads.
    For our Superintendent of Documents programs, we need to 
fund mandatory wage and price level requirements, ongoing 
projects supporting depository libraries, and operating 
expenses for the Federal Digital System that are attributable 
to this program. For this account, we have about $1.5 million 
available in prior year unspent funds that could be transferred 
forward with your approval. So we will be requesting your 
approval. That transfer would reduce our requirement for new 
funds to an increase of only 4 percent.
    For our revolving fund, we are seeking an addition to 
working capital that would cover a range of investments in IT, 
continuity of operations, facilities repair, and workforce 
retraining programs. As you know, our revolving fund was 
created in 1953, and Congress periodically has provided working 
capital to ensure the operation and maintenance of the 
Government Printing Office.
    In view of the state of the economy and the constraints on 
the Federal budget, we fully understand there are limitations 
on what this subcommittee can recommend. And so, I would like 
to briefly discuss our priorities. Chief among these is the 
need to continue the development of FDsys, our world-class 
content management system, as well as our project to replace 
the last of GPO's legacy automated systems with Oracle-based 
systems.
    Both of these investments are already yielding improvements 
in service and cost reductions. Our project to implement a 
digitally based advanced print technology at GPO, along with an 
automated workflow management system, is critical to achieving 
future economies in the production of congressional printing.
    As GPO's experience has shown perhaps better than any 
legislative branch agency, investments in technology made today 
will yield significant and lasting savings tomorrow. We have 
clearly shown that in the chart on page A2 of the budget 
justification submitted to this subcommittee, and the 
Congressional Research Service shared similar findings to 
Congress in a report last year.
    In addition to continuing repairs on our aging buildings, 
especially our elevators, ensuring the continuity of 
operations, or COOP, in support of congressional and other 
agency activities is an important priority. Recently, we 
brought a systematic approach to COOP planning, and we are 
working very closely with the House and Senate, as well as 
other entities like the Office of the Federal Register.
    Our focus is to prepare GPO to respond to a spectrum of 
emergencies from the purely local--such as severe weather, a 
power outage, or a fire--to the catastrophic. Though not 
specified as such in our original submission, I consider it a 
top priority among our COOP projects to complete the work on a 
full system failover capability for FDsys, a need that was 
accurately pointed out during the public hearings before the 
House Legislative Branch Appropriations Subcommittee in 
February.
    One final note. This is going to be another tough year for 
GPO, as it is for other agencies and businesses across America. 
We are continuing to cut costs and scale back expenditures to 
ensure we live within our budget.
    Last year, with your understanding and support, we finished 
on a sound financial basis, generating a modest net income 
before other operating expenses. We are targeting a similar 
financial performance this year--positive, but very modest.

                           PREPARED STATEMENT

    Chairman Nelson, Senator Murkowski, and members of the 
subcommittee, this concludes my remarks.
    Thank you.
    Senator Nelson. Thank you.
    [The statement follows:]

                Prepared Statement of Robert C. Tapella

    Chairman Nelson, Senator Murkowski, and Members of the Subcommittee 
on Legislative Branch Appropriations: It is an honor to be here today 
to discuss the appropriations request of the Government Printing Office 
(GPO) for fiscal year 2011.

                      RESULTS OF FISCAL YEAR 2009

    Fiscal year 2009 began with a flood of activity associated with 
completing the necessary printing, binding, and related work supporting 
the impending transition of Administrations. For the Presidential 
inauguration, GPO completed a broad variety of printed materials, which 
for the first time included the production of secure credentials for 
law enforcement personnel involved with the event.
    We also issued the quadrennially popular ``Plum Book'', known 
officially as ``Policy and Supporting Positions'', which was printed on 
behalf of the Senate Committee on Homeland Security and Governmental 
Affairs. Following the inauguration, GPO printed the official portraits 
of President Obama and Vice President Biden for placement by the 
General Services Administration (GSA) in more than 7,000 Federal 
Government installations around the globe. Rounding out this effort, 
during the year GPO produced the Congressional Directory for the 111th 
Congress, issued by the Joint Committee on Printing, which includes a 
comprehensive directory to both the Senate and the House of 
Representatives as well as the officials of the incoming 
Administration.
    Throughout the year, GPO worked to fulfill its pledge of support 
for President Obama's Open Government Initiative. In February, we 
launched our Federal Digital System (FDsys, at www.fdsys.gov), a world-
class information management system developed to authenticate, 
preserve, and provide permanent public access to official Federal 
publications. We also offered a number of suggestions to the 
Administration to help implement the President's initiative, including 
providing public documents housed on FDsys in XML format to facilitate 
a greater range of user options. In partnership with the National 
Archives and Records Administration's Office of the Federal Register, 
we carried out this suggestion by offering the Federal Register in XML. 
By the year's end we were poised to follow up making the Code of 
Federal Regulations available in XML as well.
    In addition to migrating the databases housed on GPO Access to 
FDsys, GPO also worked with staff from the Library of Congress, the 
Secretary of the Senate, and the Clerk of the House to develop a report 
on bulk data downloads of legislative information, and during the year 
we worked toward a plan for digitizing printed documents within the 
Federal depository library collection for online public access.
    To fully support the commitment to environmental sustainability 
announced by the President and Congress, GPO is developing its future 
based on environmental sustainability. This means more than just going 
green: it means expanding our digital operations and making changes in 
paper, inks, equipment configurations, and energy sources so that we 
can support our customers in Congress, Federal agencies, and the public 
in a more efficient and environmentally responsible way.
    During the year, with the help of funding provided to the GSA 
through the American Recovery and Reinvestment Act, we upgraded GPO's 
vehicle fleet with more fuel efficient and environmentally friendly 
vehicles. With the approval of the Joint Committee on Printing, we 
increased the postconsumer waste content of the newsprint we use to 
print the Congressional Record and the Federal Register from 40 percent 
to 100 percent. We also began an evaluation of how digital printing 
technologies can help us meet our production requirements in the 21st 
century.
    GPO continued making progress in providing new options to meet the 
Government's secure credential needs. Along with the credentials 
supporting the Presidential inauguration, we designed, printed, 
encoded, personalized, and shipped more than 500,000 Trusted Traveler 
Program cards (NEXUS, SENTRI, and FAST) for the Department of Homeland 
Security's Customs and Border Protection, and developed additional 
cards to support the Western Hemisphere Travel Initiative, the Medicare 
program in Puerto Rico, and other Federal identification programs. Our 
smart card production operation is a rapidly growing segment of GPO's 
Secure and Intelligent Documents business unit, building on the 
expertise and capabilities we bring to our longstanding passport 
production operations.
    Historically, the events dominating Congress and the Administration 
are reflected in the work produced by GPO, and 2009 was no exception. 
During the year, GPO recorded the debates and printed the legislation 
resulting in the American Recovery and Reinvestment Act, as well as the 
documents associated with consideration of healthcare reform in the 
House and the Senate and the various appropriations bills and other 
business before Congress. We also completed production of the main 
edition of the U.S. Code. GPO worked through the year to produce the 
documents required for the upcoming decennial census, and also produced 
thousands of traveler cards providing information on the H1N1 (swine 
flu) virus on behalf of the Centers for Disease Control.
    To help the public find access to these and other documents, we 
created a new e-mail alert system that attracted thousands of 
subscribers, and we upgraded GPO's online Catalog of Government 
Publications to help users find documents in nearby depository 
libraries. We also carried on a longstanding GPO responsibility by 
updating and issuing a new edition of the GPO Style Manual, a 
publication that has served as a guide to the form and style of Federal 
printing for more than century.
    GPO's process improvement initiatives focused on obtaining 
certification under the International Organization for Standardization 
(ISO) 9001, a quality management system, and the implementation of 5S, 
a lean manufacturing program. ISO 9001 certification will ensure GPO's 
continued delivery of products and services that meet customer 
expectations, conserve agency resources, increase efficiency, reduce 
waste, and improve quality. The 5S program instills employee process 
ownership and communicates and maintains organization of workspaces.
    I'm pleased to report that the audit of our financial reports and 
systems for fiscal year 2009 conducted by KPMG LLP resulted in an 
``unqualified,'' or clean, opinion for GPO. We completed the year with 
a net income of $1.2 million on total revenues of $934.1 million, 
excluding Other Operating Expenses of $4.1 million for an adjustment to 
GPO's long term workers' compensation liability and $1.2 million for a 
capitalized software impairment loss.
    The change in business from the previous year was attributable 
primarily to a reduction in overall passport production operations. The 
adjustment to workers' compensation liability and the capitalized 
impairment loss did not place GPO in an anti-deficiency position or 
require additional appropriations, and the state of GPO's finances 
remains sound, particularly as the result of increased new business 
opportunities in the secure and intelligent documents arena and 
continuing efficiencies achieved as a result of the sustained 
transformation GPO has undergone over the past decade.
    GPO made substantial progress in 2009. By the end of the year, we 
began developing plans for the observance of our 150th anniversary, 
dating to the enactment of the congressional resolution of June 23, 
1860, which established the Government Printing Office, and to March 4, 
1861, the day we first opened for business. We look forward to 
celebrating a century and a half of accomplishment in the coming year.

                FISCAL YEAR 2011 APPROPRIATIONS REQUEST

    For fiscal year 2011, we are requesting a total of $166,560,000, 
which will enable us to:
  --meet projected requirements for GPO's congressional printing and 
        binding operations during fiscal year 2011 and recover the 
        shortfall in this account accumulated in fiscal year 2009 and 
        projected for fiscal year 2010;
  --fund the operation of GPO's Superintendent of Documents programs 
        and provide investment funds for necessary information 
        dissemination projects;
  --continue the development of FDsys and implement other improvements 
        to GPO's information technology infrastructure, perform 
        essential maintenance and repairs to our aging buildings, 
        undertake necessary continuity of operations (COOP) 
        initiatives, and provide funding for employee retraining and 
        workforce development.

                   CONGRESSIONAL PRINTING AND BINDING

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal year 2010 approved..............................     $93,768,000
Fiscal year 2011 request...............................      96,652,000
                                                        ----------------
      Change...........................................       2,884,000
                                                        ================
Change includes:
    Price level changes................................       4,192,000
    Volume changes.....................................      (2,844,000)
    Elimination of shortfall...........................       1,536,000
------------------------------------------------------------------------

    This appropriation pays for the printing and binding for Congress 
as authorized by Title 44, U.S.C., and related statutes. GPO produces 
the daily and permanent editions of the Congressional Record, bills, 
resolutions, amendments, hearings, committee reports, committee prints, 
documents, stationery, and a wide variety of other products, in both 
print and online formats, that are essential to the legislative process 
in Congress. GPO provides Congress with immediate, reliable service in 
a work environment under its direct control.
    For fiscal year 2011, we are requesting $96,652,000 for this 
account, representing an increase of $2,884,000 over the level approved 
for fiscal year 2010.
    Included in the increase is $1,536,000 to fund the shortfall in 
this appropriation accumulated in fiscal year 2009 and projected for 
fiscal year 2010. The shortfall occurred primarily due to increased 
volume for bills, resolutions, amendments, and hearings over our 
original estimates.
    The balance represents a combination of price level increases that 
are attributable primarily to existing wage contracts and projected 
cost increases for materials and supplies, as well as estimated volume 
changes in certain workload categories based on historical data for 
first session years.
    GPO projects an overall volume decrease due to projected workload 
decreases for the daily Congressional Record, business calendars, 
document envelopes and franks, and hearings. These decreases are offset 
in part by projected increased volume for miscellaneous printing and 
services, which will include funding for content management services 
provided for congressional documents maintained on FDsys; committee 
prints; miscellaneous publications including the Congressional 
Directory for the 112th Congress; bills, resolutions, and amendments; 
committee reports; details to Congress including funding for details to 
House committees; documents; and the Congressional Record Index.
        salaries and expenses of the superintendent of documents

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal year 2010 approved...............................     $40,911,000
Fiscal year 2011 request................................      44,208,000
                                                         ---------------
      Change............................................       3,297,000
                                                         ===============
Change includes:
    Mandatory requirements..............................       1,452,000
    Investment requirements.............................       1,845,000
------------------------------------------------------------------------

    Under the relevant provisions of Title 44, U.S.C., GPO carries out 
its mission to Keep America Informed through the information 
dissemination programs of the Superintendent of Documents. These 
programs include the distribution of publications to approximately 
1,250 Federal depository libraries nationwide (averaging nearly 3 per 
congressional district), cataloging and indexing, distribution to 
recipients designated by law, and distribution to foreign libraries 
which provide the Library of Congress with copies of their official 
Government documents in exchange. In addition, GPO's Government 
documents Web site, GPO Access, and its successor, FDsys, provide free 
online access to nearly a quarter million titles, including the 
Congressional Record, the Federal Register, Supreme Court opinions, 
congressional bills and reports, and other publications, from both 
GPO's servers and links to servers in other Federal agencies.
    For fiscal year 2011, we are requesting $44,208,000 for this 
account, an increase of $3,297,000 over the level approved for fiscal 
year 2010. The increase is requested to cover mandatory pay and price 
level increases and continue improving public access to Government 
information in electronic formats.
    Of the total increase, $1,452,000 is for mandatory requirements, 
which include $715,000 for pay and price level changes and $737,000 for 
the level of overhead required to be distributed to Salaries and 
Expenses programs (the pay raise as submitted was calculated at an 
increase of 1.6 percent; an adjustment of this increase to 1.4 percent, 
the amount included in the President's budget, would result in a 
decrease of $26,000 from pay and price level changes).
    The increase includes $1,845,000 for continuing investment 
requirements. This includes $2,000,000 for FDsys annual operating costs 
attributable to Superintendent of Documents programs, offset by a 
reduction of $155,000 in the continued costs of specific projects 
supporting the Federal Depository Library Program and the Cataloging 
and Indexing program, including the modernization of legacy systems, 
expansion of cataloging and indexing services, establishment and 
utilization of outcomes-based performance measures for depository 
libraries, and funds supporting the digitization of historical print 
documents pending approval of a project for that purpose by the Joint 
Committee on Printing.
    GPO has the authority--with the approval of the Committees on 
Appropriations--to transfer forward the unexpended balances of prior 
year appropriations to the revolving fund, provided the funding is used 
to carry out the purposes for which it was originally appropriated. At 
this date there is approximately $1,500,000 remaining unexpended from 
the Salaries and Expenses Appropriation from fiscal year 2005. These 
funds could be transferred forward to offset part of the new funding 
requested for this account for fiscal year 2011.

                             REVOLVING FUND

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal year 2010 approved..............................     $12,782,000
Fiscal year 2011 request...............................      25,700,000
                                                        ----------------
      Change...........................................      12,918,000
                                                        ================
Change includes:
    Investments in information technology..............        (782,000)
    Facilities maintenance and repair..................       6,250,000
    Continuity of operations (COOP)....................       4,200,000
    Workforce retraining...............................       3,250,000
------------------------------------------------------------------------

    All GPO activities are financed through a business-like revolving 
fund. The fund is used to pay all of GPO's costs in performing 
congressional and agency printing, printing procurement, and 
distribution activities. It is reimbursed from payments from customer 
agencies, sales to the public, and transfers from the Congressional 
Printing and Binding Appropriation and the Salaries and Expenses 
Appropriation of the Superintendent of Documents. The basic purpose of 
the revolving fund is to provide temporary financing for GPO operations 
pending the collection of funds for work performed. Whenever GPO has 
significant investment projects that require additional working 
capital, we seek appropriations to the revolving fund to cover the cost 
of those projects.
    For fiscal year 2011, we are requesting $25,700,000 for this 
account, to remain available until expended, to fund essential 
investments in information technology development, facilities 
maintenance and repair, COOP projects, and workforce retraining. This 
represents an increase of $12,918,000 over the level of funding 
provided for fiscal year 2010.
    The request includes $11,000,000 for information technology 
development. This is a decrease of $782,000 from the amount of funding 
provided for this purpose for fiscal year 2010. It includes $6,000,000 
to continue developing FDsys; $2,000,000 for our Advanced Print 
Technology project, which is reviewing the potential for increasing the 
use of digital printing and automated workflow technologies to meet 
congressional and agency printing needs; $1,500,000 to continue work 
with our project to replace GPO's aging automated composition system; 
and $1,500,000 to continue replacing GPO's legacy business systems with 
an integrated network of Oracle systems.
    We are requesting $7,250,000 for facilities repair and related 
projects, an increase of $6,250,000 over the amount provided for this 
purpose for fiscal year 2010. It includes $2,000,000 for continued 
elevator repairs; $2,000,000 initiate the process of relocating 
production operations from GPO's building 4 to the main GPO complex; 
$2,000,000 to begin the systematic upgrade of GPO's electrical, 
plumbing, and structural infrastructure; $1,000,000 for utility 
monitoring and controls to improve energy efficiency; and $250,000 to 
design and install a public exhibit in support of the observance of 
GPO's 150th anniversary in March 2011 and to serve as continuing 
exhibit space.
    We are requesting funding for COOP and workforce retraining 
projects for fiscal year 2011, and have submitted the necessary 
language changes for this purpose. For COOP, we are requesting 
$2,200,000 to locate and begin equipping a remote COOP operating and 
command center, pending approval by the Joint Committee on Printing, 
and $2,000,000 for an onsite generator at GPO to supply power to the 
data center supporting production of congressional and agency 
requirements.
    We are requesting $3,250,000 for several workforce retraining and 
development programs, including $1,000,000 for a Plant Operations 
Curriculum to build digital competencies; $500,000 for supervisor 
development; $500,000 for continuing education for basic skills 
development; $500,000 for certification programs in finance and 
accounting; $500,000 for a marketing curriculum; and $250,000 for a 
technology integration program for training needs assessments and the 
provision of specialized training to operators and users of business 
support technology programs.
    Chairman Nelson, Senator Murkowski, and Members of the 
Subcommittee, we look forward to working with you, and with your 
support we can continue GPO's record of achievement. This concludes my 
prepared statement, and I would be pleased to answer any questions the 
Subcommittee may have.

                      CONGRESSIONAL BUDGET OFFICE

STATEMENT OF DOUGLAS W. ELMENDORF, Ph.D., DIRECTOR
    Senator Nelson. Dr. Elmendorf.
    Dr. Elmendorf. Thank you, Chairman Nelson, Senator 
Murkowski, and Senator Pryor. I appreciate the opportunity to 
testify today about the CBO's budget request for fiscal year 
2011.
    We are celebrating our 35th anniversary this year. It seems 
like a long time to us, although it pales next to my colleague 
from the Government Printing Office.
    This has been a very challenging congressional session for 
us. We have produced hundreds of written cost estimates and 
reports, had uncounted conversations with congressional staff 
about the analysis we are doing on proposed legislation and on 
the budget and economic challenges that face the country.

                        <greek-l>CBO deg.HEALTH

    In particular, as you know, and Senator Murkowski 
mentioned, we have devoted a vast amount of time and energy to 
analyzing alternative proposals for reforming the Nation's 
healthcare and health insurance systems. In all of that work, 
the people who are the Congressional Budget Office have 
enhanced CBO's reputation as a provider of analysis that is 
objective, insightful, timely, and clearly explained.
    For fiscal year 2011, we are requesting an appropriation of 
$47.3 million. I have brought along some pictures I think you 
have in front of you to put that request in the context of the 
past few years' appropriations.

                     <greek-l>CBO deg.SUPPLEMENTAL

    For fiscal year 2009, you appropriated $44.1 million to 
CBO. Last year, I came before you and requested $46.4 million. 
While that request was working its way through the 
appropriations process, certain Senators proposed a 
supplemental appropriation for CBO of $2 million. This was not 
our idea. It was intended to bolster our ability to complete 
health estimates rapidly, and the money was put to that 
purpose.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Because it came late in the fiscal year, we spent just 
$300,000 in fiscal year 2009 and are spending the remaining 
$1.7 million in fiscal year 2010. With this supplemental money 
on the table, our regular appropriation was cut back to $45.2 
million.
    We entirely understand that the supplemental should not be 
a mechanism for CBO to have a permanently higher level of 
appropriations. However, we are concerned that if this year's 
appropriation process begins from last year's regular 
appropriations amount, which was reduced in light of the 
supplemental, then CBO will end up with a permanently lower 
level of appropriations.
    For example, if our budget for fiscal year 2011 were set at 
last year's regular appropriations level of $45.2 million, we 
would need to cut our staff.
    To remove the distorting effect of the supplemental, our 
perspective on this year's request was to begin with our 
request to you last year. Relative to that request of $46.4 
million, this year's request of $47.3 million represents an 
increase of $900,000, or about 2 percent.
    Apart from the complications introduced by the 
supplemental, we view this year's request as the culmination of 
a multiyear plan presented to you 2 years ago to increase the 
size of the agency by roughly 10 percent. The goal, as my 
predecessor described it to you, was to enable CBO to better 
meet the needs of the Congress for analysis related to 
healthcare, financial issues, and other policy areas.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Indeed, that increase in staffing has been absolutely 
critical to our ability to provide sufficient analyses of these 
topics and others in the past couple of years. Our aim now in 
completing this plan is to increase our full-time equivalents 
(FTEs) from 254 to 258, roughly in line with the 259 that my 
predecessor suggested to you 2 years ago.
    One might wonder why we are not reducing our staff if a 
central rationale for the increase was the demand for analysis 
of health proposals and the current cycle of health reform 
efforts appears to have drawn to a close. One reason is that 
congressional demand for health analysis remains strong. We 
need to incorporate the recently enacted legislation in our 
baseline projections this summer and in all subsequent baseline 
projections.
    We also need to analyze proposed changes in the law, and we 
have already received such proposals from both sides of the 
aisle. The other reason that we cannot reduce our staff without 
hampering our ability to produce analysis is that we simply 
cannot maintain the quantity and the quality of analysis we 
have produced over the past year on an ongoing basis with the 
existing number of people.
    The extraordinary pressure and 7-day a week nearly around-
the-clock workload of the past year will soon drive good people 
away and diminish the effectiveness of those who stay. It 
really is a choice for us of having additional people or 
reducing the amount of output that we can provide on a year-to-
year basis.

                           PREPARED STATEMENT

    In closing, though, I would like to thank all of you for 
your strong support of CBO's work in the past. Your support of 
our budget request this year will help us to continue to meet 
our responsibilities to the Congress to the high standards that 
we and you expect.
    Senator Nelson. Thank you.
    Thank you very much.
    [The statement follows:]

               Prepared Statement of Douglas W. Elmendorf

    Mr. Chairman, Senator Murkowski, and Members of the Subcommittee, 
thank you for the opportunity to present the fiscal year 2011 budget 
request for the Congressional Budget Office (CBO).
    CBO's mission is to provide the Congress with timely, objective, 
nonpartisan analyses of the budget, the economy, and other policy 
issues and to furnish the information and cost estimates required for 
the Congressional budget process. In fulfilling that mission, CBO 
depends on a highly skilled workforce. Approximately 90 percent of the 
agency's appropriation is devoted to pay and benefits; the remaining 10 
percent is for information technology, equipment, supplies, and other 
services.
    The proposed budget for fiscal year 2011 totals $47,289,000, a $2.1 
million or 4.7 percent increase over CBO's regular appropriation for 
fiscal year 2010. CBO also received a supplemental appropriation in 
2009 that was intended to cover additional costs in both 2009 and 2010 
related to the analysis of healthcare legislation. After accounting for 
the portion of that supplemental appropriation that is being used in 
2010 (about $1.7 million), the 2011 request amounts to an increase of 
0.9 percent over CBO's total 2010 funding.
    The proposed $2.1 million increase in CBO's regular appropriation 
is the net of changes in three broad categories:
  --$2 million is for rising mandatory pay and related costs for 
        existing staff (including the costs of added staff funded 
        through the supplemental);
  --$0.7 million results from CBO's request to increase its number of 
        full-time-equivalent positions (FTEs) by 4, from 254 to 258; 
        and
  --$0.6 million is cut from nonpay expenditures, made possible 
        primarily because CBO will no longer be represented on, and 
        providing resources to, the Federal Accounting Standards 
        Advisory Board (FASAB).

                   GROWING DEMAND FOR CBO'S ANALYSES

    The proposed increase in FTEs is the culmination of a multiyear 
plan to enable CBO to better meet the needs of the Congress for 
information and analyses related to healthcare and a broad range of 
other policy areas.
    Between fiscal year 2001 and fiscal year 2008, the number of FTEs 
at CBO averaged 230, and the number varied little from year to year. In 
2008, however, the agency became concerned that it did not have 
sufficient resources to analyze policy changes regarding the delivery 
and financing of healthcare, which were emerging as a critical issue in 
the Congress. In addition, the agency was providing an increasing 
number of testimonies and formal cost estimates and engaging in a 
growing amount of informal analyses for Congressional staff on a wide 
range of topics, so redirecting a significant number of positions 
toward analyzing healthcare did not seem feasible. Accordingly, CBO 
proposed to the Congress a multiyear plan to boost the size of the 
agency to 259 FTEs, an increase of a little more than 10 percent.
The First Phases of the FTE Increase
    The Congress approved the first phase of the proposed increase for 
fiscal year 2009, and CBO averaged 242 FTEs that year. Analysis of 
competing healthcare proposals absorbed a huge share of the agency's 
resources, and CBO analysts in that area have worked flat out for more 
than a year. At the same time, the financial crisis led to a jump in 
the Federal government's involvement in the financial sector (including 
the creation of the Troubled Asset Relief Program, the conservatorship 
of Fannie Mae and Freddie Mac, and expanded activities of the Federal 
Reserve and the Federal Deposit Insurance Corporation), which increased 
Congressional demand for pertinent analysis, budget projections, and 
cost estimates. Therefore, CBO proposed a further increase in staffing 
for 2010, and the fiscal year 2010 appropriation included an increase 
in funding sufficient to provide for 249 FTEs.
The 2009 Supplemental Appropriation
    The Congress later approved a 2-year supplemental appropriation 
totaling $2 million, which was designed to enhance CBO's ability to 
provide faster analysis of complex healthcare proposals. That 
supplemental funding covered 5 additional FTEs for 2010, bringing the 
total for this year to 254 FTEs. On the basis of staffing to date, CBO 
appears to be on track to have roughly 254 FTEs, on average, this year.
The Proposed FTE Increase for Fiscal Year 2011
    For fiscal year 2011, CBO is requesting funding to support 258 
FTEs, 4 more than are funded in fiscal year 2010. That level of 
staffing would essentially complete the multiyear increase that CBO 
proposed 2 years ago.
    In developing its request for 2011, CBO recognized that the current 
surge of demand for analysis of healthcare proposals would probably not 
be sustained. Taken by itself, that point might justify a reduction in 
the number of positions devoted to analyzing healthcare. However, the 
agency is actually requesting a small increase in the number of such 
positions--three FTEs. That request reflects two considerations--first, 
that considerable Congressional interest in analysis of healthcare 
issues is likely to persist, and second, that the almost round-the-
clock schedule maintained this past year by CBO's current staff cannot 
be maintained.
    Let me elaborate on those points. Now that comprehensive health 
legislation has been enacted, CBO will need to make regular budget 
projections for the new and expanded Federal healthcare programs, and 
it will need to estimate the budget costs and other consequences of 
contemplated changes to those programs. In addition, CBO will probably 
need to respond to Congressional interest in exploring other possible 
changes to the healthcare system. Continued large Federal budget 
deficits and the key role of rising Federal healthcare spending in 
boosting future deficits ensure that health issues will remain central 
to the Congress's deliberations.
    With the current staffing level, CBO cannot continue to produce the 
quantity of health analysis that it completed under the extraordinary 
pressure and almost round-the-clock, 7-day-a-week workload of the past 
year. That work schedule cannot be maintained if CBO is to retain the 
skilled and knowledgeable staff that have been working on health 
analyses. And even with the extraordinary effort of this group during 
the past year, the quantity of analysis that has been produced has not 
been sufficient to meet the needs of many Members of Congress.
    The additional staff CBO is requesting will go, in some 
combination, to the Budget Analysis Division and the Health and Human 
Resources Division. If the needs for health analysis permit, CBO might 
reallocate some analysts in the Health and Human Resources Division 
from work on healthcare to work on income security and education--an 
area in which CBO has fewer analysts than necessary to meet 
Congressional needs.
    The fourth additional FTE requested is for the Management, 
Business, and Information Services Division. That group includes 
information technology (IT) personnel, editors, Web personnel, 
financial managers, and others. As CBO has expanded its analytic staff 
in the past couple of years, the agency has added some staff in those 
support functions as well. The additional position would provide 
administrative support to enable senior members of the staff to focus 
more effectively on their core responsibilities.

         SOME DETAILS OF CBO'S FISCAL YEAR 2011 BUDGET REQUEST

    In fiscal year 2011, CBO will continue to focus on its core 
functions of providing budgetary information to the Congress, including 
budget and economic outlook reports, cost estimates, mandate 
statements, and scorekeeping reports. CBO expects to continue its work 
on healthcare, government interventions in financial markets, and 
climate change--providing major policy studies on those topics and 
others--and to further improve its long-term analyses of legislative 
proposals for healthcare and Social Security through the continued 
development of budgetary and economic models.
    CBO's request would fund the following:
  --A workload of roughly 600 formal cost estimates (most of which 
        include both estimates of Federal costs of legislation and 
        assessments of the cost of mandates included in the legislation 
        that would affect state and local governments, Indian tribes, 
        or the private sector) and hundreds of informal estimates, 
        approximately 100 analytical reports, a variety of other 
        products, and a substantial schedule of Congressional 
        testimony;
  --A projected 7.3 percent, or $2.2 million, increase in base pay, of 
        which $0.5 million would support the four new FTEs and $1.7 
        million would support a combination of across-the-board 
        increases, promotions, performance bonuses, and merit increases 
        for current staff (the across-the-board increase is budgeted at 
        1.6 percent for staff earning a salary less than $100,000, 
        which is consistent with the pay adjustment requested by most 
        other legislative branch agencies);
  --A projected 4.8 percent, or $0.5 million, increase in the cost of 
        benefits, of which $0.2 million would go toward the four new 
        FTEs and $0.3 million would go toward current staff;
  --The replacement of obsolete office equipment, desktop computers, 
        and network servers, at $0.6 million--a decrease of $0.7 
        million, based on CBO's current replacement cycle;
  --The acquisition of commercial data necessary for CBO analyses and 
        studies, at $0.6 million--an increase of $0.5 million over the 
        2010 funding level (partially due to the fact that a portion of 
        the agency's current needs in this area are being met through 
        the 2-year supplemental appropriation provided in fiscal year 
        2009);
  --IT system development, at $0.3 million--the same amount as in 
        fiscal year 2010, based on anticipated requirements;
  --Essential software purchases, at $0.3 million--about the same sum 
        as in fiscal year 2010, based on anticipated requirements;
  --Telecommunications and telephone services, at $0.3 million--an 
        increase of roughly $50,000 to support expanded requirements;
  --Equipment maintenance, at $0.3 million--a little above the fiscal 
        year 2010 funding, based on current contracting data;
  --Temporary IT and clerical support, at $0.2 million--the same amount 
        as in fiscal year 2010;
  --Expert consulting, at $0.3 million--about the same funding as in 
        fiscal year 2010;
  --Purchases of office supplies and subscriptions, at $0.6 million--an 
        increase of roughly $70,000, primarily attributable to an 
        increase in costs for online subscriptions;
  --Financial management services, including support for auditing, 
        payroll, and financial systems, at $0.4 million--a small 
        increase from 2010, primarily because of anticipated price 
        hikes when renewing option-year contracts (I am pleased to 
        report that CBO received its sixth consecutive clean opinion in 
        the latest audit of its financial statements);
  --Office furniture and equipment, at $0.3 million--a slight decrease 
        from the fiscal year 2010 funding;
  --Travel, at $0.2 million--the same level as fiscal year 2010; and
  --Management and professional training, at $0.2 million--roughly the 
        same sum as in fiscal year 2010.
    Because CBO withdrew from the Federal Accounting Standards Advisory 
Board in fiscal year 2010, CBO's request incorporates a savings of $0.5 
million in support previously provided to that body.
    One further consideration in this request for funding for four 
additional FTEs is the capacity of CBO's assigned space in the Ford 
House Office Building. CBO currently has only a handful of unused 
offices, which must accommodate temporary workers (like contractors, 
auditors, and interns). During the past few years, CBO has created a 
number of additional offices by reconfiguring underutilized space, and 
the agency is currently undertaking further modifications in its 
configuration and utilization of space. As a result, a sufficient 
number of new workspaces can be created for all of the FTEs that CBO is 
requesting in this budget.
    In closing, I would like to thank the Committee for the support it 
has provided CBO, enabling the agency to carry out its responsibilities 
to provide information and analysis to the Congress as it grapples with 
the critical issues facing the nation.

                  <greek-l>GPO deg.FACILITIES REPAIRS

    Senator Nelson. Let me start with Mr. Tapella. Your request 
for revolving funds totals $25.7 million and includes 
everything from workforce retraining to building repairs. Are 
any of these items a matter of life and health and fire safety 
priorities that can't be put forward into another year?
    Mr. Tapella. I would say----
    Senator Nelson. Like the elevators in the past, yes.
    Mr. Tapella. What I would say is the continued elevator 
repair is a life and safety issue. GPO has 33 elevators, 31 in 
current operation. Several of them we have shut down over the 
years. We just reopened the first two from funding two cycles 
ago, and it is a serious issue.
    We manufacture on multiple levels. So the freight elevators 
moving congressional work up and down are important. And also, 
as we experienced this year, when we have an emergency 
situation, for example a medical emergency, being able to get 
personnel in and out of the building in a timely fashion is 
absolutely critical.
    And so I would put, in terms of the building projects, the 
elevator repair as our highest priority.

                  <greek-l>GPO deg.INCREASING REVENUES

    Senator Nelson. In terms of increasing revenues, what 
actions have you taken that would result in increasing 
revenues? In other words, getting paid for certain publications 
in the past that have perhaps been free or subsidized as to 
their costs, what actions have you been taking?
    Mr. Tapella. Our greatest area for revenue generation has 
been in our security and intelligent document business, which 
is where we produce the United States passports. We also 
produce the trusted traveler cards for Customs and Border 
Protection. We have made some significant investments in 
infrastructure and equipment for so-called ``smart cards'', and 
among other things, we produced the credential used by law 
enforcement officials for the 2009 inauguration. We are working 
right now with the Department of State to produce credentials 
for diplomats.
    We are working to try to get into the HSPD-12 business, 
which is the identification cards for Federal Government 
employees, and I see that as our greatest growth business. In 
fact, a small piece of it, we have also produced a credential 
for inspectors general in Government.
    I believe that credentials are something that are 
inherently governmental and belong in a Government-owned, 
Government-operated secure facility, and that is where we have 
been focusing. And we have been seeing great results.

             <greek-l>GAO deg.GAO'S REQUESTED FTE INCREASE

    Senator Nelson. Okay. Mr. Dodaro, can you explain why the 
fiscal year 2011 request includes 49 additional FTEs to 
maintain current staffing levels? I am not sure I understand 
why additional FTEs are necessary to maintain current staffing 
levels.
    Mr. Dodaro. My understanding is that we are requesting 
enough to keep our existing staffing onboard for our base 
request. We are not asking for additional support. Let me just 
clarify that with my team to make sure I give you the proper 
answer.
    Senator Nelson. Okay. Sure.
    Mr. Dodaro. The 49 FTEs are needed to annualize the hiring 
and attrition that will occur throughout the year. It is just 
for the people that we project to have onboard in fiscal year 
2010, to annualize their time through next year. It is not 
needed for additional people, Senator.
    Senator Nelson. So it is not a net increase of FTEs. It is 
what it takes to replace as you have turnover, and is that it?
    Mr. Dodaro. Yes. We have had a little less turnover than we 
had in the past this year due to the economy and the other 
issues, as I am sure you are aware of. But that is just to 
annualize those people that we will have onboard.
    Senator Nelson. Okay. So the attrition rate has declined as 
a result of the economy, and----
    Mr. Dodaro. Yes. And we have adjusted our hiring 
accordingly.

 <greek-l>GAO deg.GAO'S INVOLVEMENT WITH ADMINISTRATIVE ISSUES FACING 
                           THE CAPITOL POLICE

    Senator Nelson. Sure. Okay. And let me say that we 
appreciate your work for the subcommittee and helping us with 
your sister legislative branch agencies. For example, I know 
you have done extensive work on the challenges facing the 
Capitol Police, particularly in identifying weakness in the 
Capitol Police's financial management operations.
    What would you say from your standpoint is the biggest 
challenge facing the Capitol Police at the present time, and 
particularly in terms of the accounting issue that they have 
had?
    Mr. Dodaro. We are looking at that issue a little more 
carefully to identify exactly what the root causes of the 
problems are. There are budget formulation issues that we have 
identified in terms of how they prepare the budget, but there 
are also questions about how they execute and keep track of the 
budget and issues that have been raised by their financial 
auditors in the past.
    We are working with their inspector general very carefully. 
We are also going to be meeting with their financial auditors. 
We discussed this with the House Appropriations Committee, and 
I agreed that we would look at this and try to advise the 
Congress on exactly what to do.
    I am confident that over the next couple of months, we can 
figure out exactly what the root causes of the problems are. 
They will need to have the issues documented so they can get 
the proper procedures and controls in place. They also will 
need the proper people to execute those controls to make sure 
there aren't breakdowns again as they have had over this past 
year.
    I am committed to helping the police and you make sure that 
these issues are addressed.
    Senator Nelson. So you would conclude that it is 
essentially an accounting and process and procedures challenge 
that they face, rather than something that would be criminal 
activity?
    Mr. Dodaro. I am not aware of anything right now that would 
fall in that category. I mean, some of our early findings were 
that they had misclassified some things as benefits instead of 
salaries, and because of that, you didn't have the compounding 
of the salaries plus the benefits. And that accounted for some 
of it.
    But we are going to be looking more carefully at it, and if 
there are issues like that, obviously, we would pursue them 
with the inspector general over there. But so far, there is no 
indication of that type of activity.
    Senator Nelson. Thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    And I will just be a little bit sarcastic here, but I think 
that we could have avoided some of these budget increases had 
we not been dealing with healthcare reform. Because you look at 
it, Mr. Tapella would not have had to be printing multi-
thousand pages bills. Dr. Elmendorf would not have to be 
staying up every single night, 7 days a week, analyzing this. 
And Mr. Dodaro would not be having to do the auditing. So I can 
help you with how we deal with the budget increases.
    Senator Nelson. Well, we learn from the past.
    Senator Murkowski. Yes, we do. Well, I think it was you, 
Mr. Dodaro, that said that you anticipate that you will have 
more on your plate in terms of the assessments, the analysis, 
whether it is ongoing with healthcare or what may come ahead 
with financial regulatory reform. I think, again, that is why 
we recognize the importance of all that they do within their 
respective offices.

                <greek-l>GAO deg.RECOVERY ACT OVERSIGHT

    Mr. Dodaro, let me ask you about the ARRA dollars that you 
received, recognizing that you got the $25 million to help 
offset this additional workload. Did I hear you correctly that 
that either has all been obligated or will be obligated by the 
end of this fiscal year? Is that correct?
    Mr. Dodaro. That is correct. So far, we have obligated 
about $14 million of the $25 million, and we expect to use the 
rest of the money throughout the year. We have also used some 
of our base appropriation.
    Senator Murkowski. Right.
    Mr. Dodaro. But, yes, that money expires, and we will have 
used it all.
    Senator Murkowski. So then with the $21.6 million that you 
are now requesting, do you believe that this is going to be 
sufficient to carry you through 2014, or do you see that there 
is going to be a need for an additional request to help you 
bridge that?
    Mr. Dodaro. Yes. The money we requested this year was for 
the 2011 budget cycle. We will probably need some additional 
bridge money later, given the fact that there is going to be 
money spent beyond fiscal year 2011. But we will have to see in 
terms of the spend-out rates.
    The estimates from CBO, which have been fairly reliable so 
far, are that the outlays for 2011 would be about $63 billion 
additional, and then from 2012 through 2019, another $60 
billion. I think most of that will occur in 2012.
    Senator Murkowski. Let me ask you then----
    Mr. Dodaro. Yes.
    Senator Murkowski [continuing]. Because it speaks to an 
issue that Dr. Elmendorf is dealing with in CBO. You want to 
make sure that these not necessarily one-time, but short-term 
dollars that you had received through ARRA are not going to be 
a permanent part of your base funding and your FTE level.
    So how can we ensure that that is not the direction that we 
are going? Because essentially, here you have got a couple of 
years going forward now with these increased levels. Does that 
then not become your base?
    Mr. Dodaro. We are not intending for that to happen, 
Senator. From the very beginning, what we have done is we have 
brought back some reemployed annuitants. We have had term 
appointments. So we have, from the beginning, structured it so 
that most of the people who we are bringing back to work on 
this are temporary people who will go away as the work goes 
away over time.
    That is why we segregated it in our budget submission. We 
wanted to be very transparent. We are not intending this as a 
backdoor way to increase the base for our appropriation.

                <greek-l>GAO deg.GAO'S OVERSEAS PRESENCE

    Senator Murkowski. Okay. Let me ask about the engagement 
support costs. I understand that you are working with the State 
Department to establish these field presences in Afghanistan, 
Iraq, and Pakistan. Will these be permanent presences in these 
countries then? And if so, what is that arrangement, and are 
you getting any contribution from the State Department with 
these particular engagement supports?
    Mr. Dodaro. They are not intended to be permanent. They 
will only be there during the buildup in Afghanistan, and the 
drawdown in Iraq. We have had three people on 6-month 
rotational assignments in Baghdad now for about a year or so. 
We are getting security support, obviously, from State 
Department and the Department of Defense (DOD). They have been 
very cooperative. We don't get any financial support.
    Senator Murkowski. But any money?
    Mr. Dodaro. No.
    Senator Murkowski. Should we, in your opinion?
    Mr. Dodaro. Well, it is really a policy issue. The Congress 
granted us authority to be reimbursed for our oversight of the 
TARP program. We have to be careful that we don't go too far in 
receiving financial support from agencies we audit, rather than 
funding from the Congress. This could compromise our 
independence.
    But in extraordinary circumstances we have received 
additional financial support. For example, now that aid will be 
going to Haiti. I am sure we will be asked to audit that 
assistance over the next few years. In the past, when we were 
auditing the recovery from Hurricane Mitch in Central America, 
we were given travel money separately in an appropriation from 
the State, Foreign Operations Appropriations Subcommittee.
    So sometimes we are given these special appropriations. I 
certainly would welcome your support in this regard because it 
is really intended to just provide a base. A lot of our travel 
is done because we need to go where the money is being spent, 
and we have had teams going back and forth to Iraq and 
Afghanistan for a while now.
    Senator Murkowski. Do you have any permanent presence in 
any of these countries where you are involved?
    Mr. Dodaro. No. Many years ago, we had offices in 
Frankfurt, and we based out of there. We also had an office in 
Honolulu to do the travel in Asia. But we don't anymore. We 
have consolidated, so we only have domestic locations.
    Senator Murkowski. Thank you.
    Thank you, Mr. Chairman.
    Senator Nelson. Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    I want to thank all of you for all of your help last year 
because healthcare was a very, very tough strain on all the 
resources around here. So I want to thank all of you.
    And I know, Dr. Elmendorf, you were in the bull's eye for 
quite a bit of that process. So I just appreciate what 
everybody has done and everybody's team did to get us through 
that.

                       <greek-l>CBO deg.COMPUTERS

    Let me ask you, Dr. Elmendorf, if I can, about your 
computers. I don't know how accurate this is. But either on 
this subcommittee or just in conversations in the past, we have 
talked about maybe you have a computer system that maybe takes 
longer to do some of the calculations, and I know you do a lot 
of complex modeling and all that kind of thing.
    But tell me about your IT needs right now. Are you in good 
shape, or do you need to modernize what you have?
    Dr. Elmendorf. Senator, I think at this point, we are 
actually in good shape. We did buy faster computers last 
summer.
    Senator Pryor. And did that make a difference?
    Dr. Elmendorf. And that made a real difference. These very 
complicated proposals, we often would set a computer running 
overnight, and if we set it up--the program up wrong, we could 
not discover until the next day. And we shortened the time 
required for some of those estimates for a computer run very 
dramatically. So it made a real difference in what we did.
    We also, in the request that you approved for us beyond the 
supplemental, just the regular appropriations enabled us to 
catch up on what had been a large amount of deferred IT work. 
So we have replaced the entire network that we have, which had 
not been done for a number of years. And we have replaced a 
number of the machines on people's desktops.
    So, at this point, we think we are doing pretty well. And 
in fact, our request for IT support is coming near, for 
purchases of equipment is below what we are spending in fiscal 
year 2010.
    Senator Pryor. When you have technology improvements like 
you have had, does that help you in terms of your man-hours 
needed to do the various tasks that you are asked to do?
    Dr. Elmendorf. It doesn't--not really. It is not really a 
substitute for our staff. It is a complement. It is a tool that 
they use. Ninety percent of the CBO budget is staff. We luckily 
don't have some of the problems of the physical plant that the 
Government Printing Office does. Ninety percent of our budget 
is for staff, about 6 percent for IT, and 4 percent for 
everything else.
    So the computers don't really--that is what the people need 
to work with. I mean, it is better to have them working, not 
sitting, waiting for a program to finish. But the programs 
still sometimes finish in the middle of the night, and we have 
people get up and pass results on to somebody else in the 
middle of the night.

                       <greek-l>CBO deg.WORKLOAD

    Senator Pryor. Do you--I know last year, the last couple of 
years with healthcare reform have just been extraordinary in 
terms of your workload. Do you think you will go back down to 
kind of a pre-2009 workload, or do you think the Congress will 
continue to do complicated pieces of legislation, and they will 
continue to need more and more of your expertise and time?
    Dr. Elmendorf. I think it is unlikely that we will face a 
year again like this past year, and I can only express my 
gratitude for that.
    But, of course, once a program is in place, the Congress 
rarely leaves it alone. The passage of Medicare and Medicaid 
many years ago did not--CBO didn't exist at the time, but of 
course, much work has been done after that on those programs.
    The passage of the Children's Health Insurance Program 
(CHIP) did not end our work analyzing CHIP proposals. We hired 
people who became experts in that program, and we analyze a 
vast number of proposed changes to it. So this large new 
program that has been put in place will require us to do 
ongoing work in our baseline projections and also in analysis 
of proposed changes to it and some changes one might think of 
as additions and some changes that are being proposed in the 
public sphere at least at this point are taking away some of 
what is there.
    What exactly will happen, I don't--what will come to us in 
legislative terms, I don't know. But I expect a significant 
amount of ongoing work. In addition, for all of the health 
changes in that legislation, projected Federal health spending 
is very high and growing very rapidly, and the Federal budget 
deficit is large and projected to be large. The debt projected 
to grow rapidly, and the growth in Government health spending 
and the growth in the Federal debt are related phenomena, of 
course.
    So I expect even beyond analysis related to this 
legislation that was enacted to have a lot of congressional 
interest and a lot of work on our part in pursuing further 
changes that might be made in the Government's budgetary 
commitment to healthcare.

                <greek-l>CBO deg.FOREIGN NATIONAL HIRING

    Senator Pryor. Mr. Chairman, I had one last question for 
Dr. Elmendorf, if I could? And that is a little different track 
here. But in section 704 of the 2010 omnibus appropriations 
bill, there is a restriction on the hiring of foreign 
nationals. Can you tell me why that is detrimental to your 
agency?
    Dr. Elmendorf. About two-thirds of people getting Ph.D.s in 
economics in the United States today are foreign nationals. 
About 40 percent of CBO staff are economists, people with 
Ph.D.s in economics.
    Now, in a number of fields in economics, there are most of 
the job candidates, people we look to hire, are U.S. citizens. 
But there are some particular fields where the proportion of 
foreign nationals is especially high. And if you look at the 
CBO staff today, a good share of the people we have working on 
finance and in some areas of macroeconomics, especially when we 
try to model the effects of growing Federal debt on the economy 
and alternative policies for addressing that growing debt, a 
lot of the people we have now are foreign nationals.
    Now this legislation grandfathers existing employees. So it 
doesn't affect them. But as we try to hire people to work in 
those areas, not being able to hire foreign nationals 
significantly restricts the pool of people we can look to and 
hampers our ability to hire the very best available people.
    And before this change was made, we, and other parts of the 
Government, were able to hire foreign nationals not from every 
country, but from a significant set of countries, essentially 
those with whom the United States has a defense agreement. So 
there were certain limitations, but the pool was large enough 
that we could do the hiring we thought we needed. And this 
restriction really does hamper our ability to maintain the 
highest-quality staff in some of those very critical areas for 
us.
    Senator Pryor. Thank you.
    Dr. Elmendorf. Thank you, Senator.
    Senator Nelson. Thank you, Senator Pryor.

                    <greek-l>CBO deg.SHIFT RESOURCES

    Dr. Elmendorf, in addition to hiring or besides hiring 
additional FTEs and the faster computers, has there been any 
other--have there been other efforts to try to shift internally 
resources within your agency where you get better results with 
lower costs?
    Dr. Elmendorf. So, Senator, we work very hard to try to 
move resources to where the greatest need is and not to just 
stay stuck in existing patterns of spending or resource 
allocation. And in fact, over the past few years, more of the 
existing slots for staff at CBO have moved in the health 
direction, anticipating demands in that area.
    I think our ability to do that, though, is limited by the 
demands of Congress in other areas. Over the past--during this 
congressional session, the past year and a quarter, we released 
more than 600 formal cost estimates, which only a few are 
actually in health. Much of the work that we did was informal 
developmental work. So most of that, those estimates are in 
other areas.
    With the Government's increasing involvement in the 
financial sector, we have, over the past few years, devoted 
additional resources so we can provide you with appropriately 
high-quality estimates of the effects of TARP, of the effects 
of the Government's conservatorship of Fannie Mae and Freddie 
Mac, of the greater demands on the Federal Deposit Insurance 
Corporation (FDIC), the Federal Reserve, other aspects in which 
the Government is engaged in the financial system.
    Congress is considering very important changes in climate 
and energy policy. We have a large group of people who have 
been devoted to analyzing various different approaches that 
have been proposed. They are dealing with a set of energy 
problems and climate problems. And we are being asked to do 
increasingly sophisticated analysis of the effects of those 
sorts of proposals in terms of their effect on overall economic 
output, the effect on the well-being of households in different 
parts of the country, different income levels, and different 
years.
    So we feel that we are pressed on a whole range of fronts, 
on national security work that we do. I promise you, Senator, 
there is nobody at CBO who is just sitting and waiting for 
something to come across their desks. We take very seriously 
the stewardship of the resources that you provided to us.

         <greek-l>GAO deg.GAO HIRING FOR RECOVERY ACT OVERSIGHT

    Senator Nelson. Mr. Dodaro, how many people have you hired 
using the stimulus funding, the special additional funding to 
deal with the ARRA expenditures?
    Mr. Dodaro. We have hired about 70 people as term employees 
and reemployed annuitants. We have tried to hire people who are 
living in some of the States that we are auditing in order to 
reduce our expenditures even further, and make the money go 
further.
    We then increased our normal hiring by about 70 people with 
the belief, and we still believe this, that we will be able to 
absorb them through normal attrition over time. We also used 
some additional people within GAO because we had to get started 
right away. As soon as the act was passed our first report was 
due 2 months after the law was passed, and so, we redeployed 
some of our people. So collectively there is the equivalent of 
144 FTEs that were charged to this account, but the number of 
people that we hired was about 70.
    Senator Nelson. In recognizing that after these initial 2 
years, the actual amount of money that will be going out is 
reduced significantly, as you point out. It is still a 
significant amount of money, but as a percentage, it drops. 
What would you estimate your hiring needs or your staffing 
needs for, let us say in terms of numbers of people, FTEs, in 
fiscal year 2011 and fiscal year 2012?
    Mr. Dodaro. We have proposed 144 FTEs during that period of 
time. I think that would be the appropriate level for fiscal 
years 2011 and 2012. After that, I think we can clearly phase 
down because there will be fewer programs at that point in 
time, and the money is spread out over a number of years.
    What I am concerned about, Senator, is the fact that States 
are under a lot of fiscal stress at this point, and we have 
seen them cut back in the management of the programs and also 
their auditing capacities over a period of time. For instance, 
the weatherization program is almost quadrupling the amount of 
money that would be spent there. There are new programs that 
are getting started. We have urged the OMB to use their power 
to require better audits of money through the single audit 
approach that is used over Federal programs.
    But I am just concerned that a lot more money is flowing 
directly to the localities. And so, the States need to have the 
ability to track these funds. We have made a lot of 
recommendations to the Federal agencies that they monitor the 
use of the money at sub-recipients and sub-award levels. And 
so, I think the risk is there.
    States, as well as the Federal departments and agencies, 
are going to remain under fiscal stress collectively for the 
next couple of years. I think that attention needs to be paid 
to this money to make sure it really achieves the desired 
effect and is used appropriately. And so, I take that 
responsibility very seriously, and that is why we are asking 
for these resources and help.

     <greek-l>GAO deg.STATES' ABILITY TO MANAGE RECOVERY ACT FUNDS

    Senator Nelson. And I would agree with you on that as well. 
Have you had or found many instances where the State thus far 
wasn't managing or supervising the delivery of the funds and 
programs that were under their control?
    Mr. Dodaro. I have been pleased early on that they have 
taken it seriously and responsively. But a lot of the monies in 
the early years are being delivered through existing programs 
such as the Medicaid program. They have rules and procedures in 
place. The highway programs have well-established procedures. 
And so, in the first couple of years, given the fact that the 
money is going through existing programs, it hasn't proven to 
be yet as stressful as it will be in the coming years.
    Now, that being said, when we find occasions where things 
are going to ineligible recipients or there are ways the States 
could tighten up their programs, we are giving them 
suggestions. We also created a special hotline where any 
citizen can call in with complaints or allegations of fraud. We 
are currently following up on about a dozen of those examples. 
We have referred many others to the inspectors general.
    We are looking at contracts both at the Federal level and 
at the State level. We are looking at whether or not the 
reporting coming back is accurate. I mean, this is a huge, 
decentralized set of programs and activities throughout the 
country. And so, I think our presence there also has had a 
deterrent effect to some extent because the States know that we 
are there.
    We picked 16 States and the District of Columbia. They are 
going to receive two-thirds of the amount of money, and we 
announced to them we were going to be there for 2 or 3 years 
while the money was being spent. So they know we are there, and 
we have got good cooperation. I am pleased with that. But we 
need to keep a wary eye on the expenditures, and that is what 
you fund us to do.
    Senator Nelson. I appreciate that.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

                      <greek-l>CBO deg.FLAT BUDGET

    Dr. Elmendorf, I would like to go back to you. Your 
increase here is primarily for salaries and benefits. Six-
point-five percent of it is for that. The balance then is for 
other nonpay-related expenses and information technology that 
we have talked about here.
    The question is if we were to move toward a flat budget 
from last year, how do you do that? Because you clearly need 
the employees. You have already trimmed the funding level for 
the nonpay and related expenses. Tell me what your operations 
look like if we go flat funding.
    Dr. Elmendorf. So can I ask back first, flat relative to 
just the regular appropriations or flat----
    Senator Murkowski. Well, that was how you started at your 
opening statement.
    Dr. Elmendorf. It makes, as you know, it makes a 
significant difference.
    Senator Murkowski. Sure, it does.
    Dr. Elmendorf. If you fund us at our regular, the same 
level as the regular appropriations from last year, then we 
would reduce staff. We have hired people using some of the 
supplemental money, and we would not, I think, have to lay them 
off. There is attrition at CBO. But we would end up reducing, 
taking those slots back, and we would go back to a level that 
was below the level we have today.
    And we would set priorities in our work, and we do that 
now. Of course, in the health reform process for all of the 
work, I had an awful lot of angry phone calls from your 
colleagues asking why we couldn't do their--analyze their 
proposal, and they were right to be unhappy about that. And I 
kept telling them we were doing the best that we could.
    So it is always a matter of prioritizing, but the 
constraints, of course, get much tighter if we end up going 
backward in the number of people that we have.
    Senator Murkowski. So would you lose four? Is that what you 
would anticipate? Because that is what you are asking for in 
this----
    Dr. Elmendorf. So I think we have hired five. I think we 
have hired five people. I think that supplemental, with the 
part of supplemental devoted to personnel amounted to five 
additional FTEs. So we would go backward by five FTEs from 
where we are now. That would be nine FTEs below where we would 
be if you funded our full request.
    Senator Murkowski. I see. Okay, I understand that. Thank 
you.

               <greek-l>GPO deg.REVOLVING FUND PRIORITIES

    The chairman asked you, Mr. Tapella, about the revolving 
fund and if there were any projects on here that are life/
safety, and you discussed a little bit about the elevator. 
Recognizing that this funding request represents over 100 
percent increase over the fiscal year 2010 enacted level, you 
have got 17 projects. Some I am assuming are ongoing, some 
perhaps are new.
    If you were held to the fiscal year 2010 level of $12.8 
million for the revolving fund, how do you prioritize this list 
of projects? Because you kind of got off easy on the last one, 
talking about the elevator.
    And I am sure that we have got to have those elevators 
working to move those documents up and down. But how would you 
make this a prioritization?
    Mr. Tapella. I would look at our total budget request and 
not look at the individual ones the way that we have them 
segregated into the three accounts.
    And so, looking at that, I would request full funding for 
congressional printing and binding. For salaries and expenses 
of the Superintendent of Documents, I would request full 
funding less the $26,000 adjustment because we used the 
original rate of 1.6 percent for the mandatory pay increases, 
and the President announced 1.4 percent. That is roughly 
$26,000 that we could reduce. And if we can, with your 
permission, move forward the prior year funds of $1.5 million, 
we basically request a reduction of $1.526 million from the S&E 
appropriation.
    When we go to the revolving fund, flat funding would 
provide $8.127 million. With that, as I look at our priorities, 
I would request roughly $5.127 million for FDsys development, 
$1 million for our advanced printing technology initiative, $1 
million for COOP, and $1 million for the continued repairs of 
elevators because that is a life and safety issue.

            <greek-l>GPO deg.NEW VERSUS CONTINUING PROJECTS

    Senator Murkowski. Are there any new projects that are on 
this list? And I really appreciate what you have just run down 
there because you were really able to give some definition 
there. Are most of these ongoing, or do you have some new that 
we can look to at a later point in time?
    Mr. Tapella. When you look at the Government Printing 
Office's appropriation for fiscal year 2010, at $147 million, 
that represents roughly 12 percent of our gross revenue. The 
remainder we receive from the executive and judicial branches 
as reimbursement for the products and services we provide to 
them, as well as the general public through GPO's publications 
sales.
    When we fund initiatives, typically the revolving fund is 
paying for a portion of it, if it is a congressional 
appropriation, and then the remainder coming out of our 
retained earnings. Last year our retained earnings were $1.234 
million, very, very slim. The prior year, it was in the $30 
million range, which means that our ability to self-generate 
investment capital has gone down considerably.
    For the Federal Digital System, to date, roughly two-thirds 
of the spending has come from appropriations, primarily from 
unspent appropriations that were moved forward from previous 
years. The remainder came out of our revolving fund from 
retained earnings from all of GPO's operations.
    The advanced printing technology assessment is new. 
However, GPO has always had continuous improvement in our 
technologies, whether we funded them from the revolving fund or 
asked for direct appropriations. And so, while that is a new 
initiative, I think it is absolutely critical if we want to 
continue driving the costs out of our congressional printing 
budget moving forward.
    Up to this point, GPO has funded COOP through our revolving 
fund. We have significantly stepped up our COOP efforts. This 
past year has been a very rough year for GPO. We have had three 
fires, which we had to deal with, and we had a power outage in 
our data center, which threw off production by nearly a full 
day.
    And that affected Congress. It particularly affected the 
House of Representatives because we were many, many hours late 
with the Congressional Record. And so, when you ask the 
question about new versus old, I don't think it works the same 
way as it does when Congress completely funds an initiative 
fully with appropriations.
    Senator Murkowski. Thank you, Mr. Chairman.
    Senator Nelson. Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.

             <greek-l>GPO deg.ENVIRONMENTAL SUSTAINABILITY

    I would like to start with you, Mr. Tapella, about the GPO 
and a little bit on the money, but also just on your policy. 
And I am curious about what your agency is doing to support 
environmental sustainability? Because it seems to me that you 
have a lot of opportunities there with the volume of paper that 
you are using, the types of ink, the energy required to do all 
the printing, the recycling.
    The fact that a lot of this is available online now, and 
you may not have to print as many copies, like you did in the 
old days. Your vehicles, building modifications, you have an 
old building. I mean, do we need to talk about the HVAC system 
there? Do we need to do like an energy contract there to try to 
save some money through that?
    So could you give us just a few minutes on what you have 
got going on your environmental sustainability side?
    Mr. Tapella. Thank you for the question, Senator Pryor.
    Sustainable environmental stewardship has been one of my 
top priorities since becoming Public Printer in October 2007. 
And this past year, GPO made history by working with the Clerk 
of the House and the Secretary of the Senate, as well as the 
Speaker and Majority Leader, to increase the amount of recycled 
fiber in the newsprint used to produce the Congressional Record 
to 100 percent. And that was significant.
    We are also now working on looking for more sustainable 
copier papers, seeing what we can have available. When it comes 
to Congress and the letterhead we can make available for 
Congress to use, it can be 100 percent recycled. It is a 
combination of rag, plus pulp, and that is new this coming 
year.
    When we look at, for example, other items----
    Senator Pryor. I don't want to interrupt you on that, but--
--
    Mr. Tapella. Yes?
    Senator Pryor [continuing]. As you are going through this, 
give us a sense of--I know all that is good for the 
environment, but does that also save money to do that, or is it 
more expensive to do that? Or give us a sense of how that 
works, too.
    Mr. Tapella. Okay. When it comes to the Congressional 
Record, we were able to negotiate the exact same price for the 
paper that had been 40 percent recycled for what is now 100 
percent recycled newsprint. So that does not cost Congress any 
more.
    When it comes to the one-star, I think it went up just 
marginally, but not much. I would call it a relatively 
insignificant amount.

              <greek-l>GPO deg.SUSTAINABILITY ACHIEVEMENTS

    Some of the areas where we are seeing significant success 
is in the area of recycling. GPO has been recycling since 1861, 
when we opened our doors for business.
    When we look at diverting waste that would ordinarily go to 
the landfill, back in fiscal year 2008, my first full year as 
Public Printer, we were able to divert roughly 65 percent of 
the waste from GPO from going to the landfill. This past year, 
we were able to divert 87.5 percent of the waste leaving GPO, 
right down to the desks. Old wood desks are now ending up in 
Maryland and are being converted to mulch.
    We have seen a reduction in volatile organic compounds, and 
that has to do with some changes we have made in the solvents 
we are using on our presses. We have removed all of our 
underground storage tanks, and we had fuel under there as well 
as solvent, and those have been removed.
    The Environmental Protection Agency has lowered GPO status 
from being a large quantity producer of hazardous waste to a 
small quantity producer of hazardous waste. In fact, even 
though we are a 1.5 million square foot factory, probably the 
13th largest printing house in the world, we are producing less 
hazardous waste than the typical mom-and-pop shop on the 
corner. And I am very, very pleased about that.
    I want to thank the subcommittee for some of the funding 
for our new roof. We have replaced the majority of the roof on 
GPO, all of the flat portions of the roof. It doesn't cover 
elevators and a few appendages to GPO, but roughly 100,000 
square feet are new, and that is a new biomass roof that is 
white. It is reflective.
    It will not only have twice the life expectancy of a 
standard roof, but it also will reduce our energy consumption. 
And so, those are some of our sustainability achievements.
    We have over 40 vehicles in our fleet, which includes 
trucks, vans, and cars. Thanks to funding provided to the 
General Services Administration, we were able to replace 21 of 
our vehicles. Eighteen of them are Flex Fuel E-85, and 2 of 
them are hybrid. These are what we use to make deliveries to 
and from the Hill.
    That was at no cost to us. It was funded through the 
Reinvestment Act, and I am sorry I can't get the name correct. 
But we were able to take advantage of that.
    Senator Pryor. So it sounds like a lot of that will save 
the taxpayers money, if not in the first year, but in the out-
years you will save?
    Mr. Tapella. Absolutely. I have appointed an executive to 
be in charge of sustainable environmental stewardship at GPO, 
and everything we are doing we are looking at the return on 
investment. We are typically looking for a less than 5-year 
return on investment in any investment we make when it comes to 
sustainability.
    With the Federal Digital System, when we bought the servers 
for it, instead of the standard 80-watt processor servers, we 
used 50-watt processor servers to significantly reduce energy 
consumption without losing any of its capacity.
    Senator Pryor. All right. Good.
    Well, I am glad I asked that question then because you have 
a lot going on there, and it is good for us to be aware of 
that.

                 <greek-l>GAO deg.GAO'S DIVERSITY PLAN

    Mr. Dodaro, I do have a question for you about diversity 
there in your office, in your agency. And I guess I would like 
to ask all three if you have a diversity plan, but specifically 
for you, I would like to know how your efforts at diversity are 
going?
    Mr. Dodaro. We are very committed to diversity at the GAO. 
Right now, 30 percent of our workforce are minorities. Women in 
our workforce are approaching 60 percent of the workforce. We 
have produced a diversity plan over the last 2 years which has 
goals that we set for ourselves in terms of focusing in on 
additional training.
    Right now, most of the workforce at the GAO either equals 
or exceeds the relevant labor force numbers in those areas. We 
need to increase the number of Hispanics that we have in the 
organization, particularly in the administrative areas, but 
also throughout the rest of the organization. We are focused on 
that. We are focused on people with disabilities as well. We 
just entered into an agreement with the Library of Congress to 
use some of their facilities for testing out devices to help 
people who are disabled to go forward. I am personally 
committed to it. I am very committed to it. I think the effort 
is going well.
    We created a diversity advisory council at GAO that has 
representatives from all the different employee groups. We are 
working very well with our union on collective bargaining 
agreements. We have an employee advisory council for people who 
aren't in the bargaining unit within GAO. We are making 
headway.
    We have hired trainers and have developed diversity 
training programs that will become an integral part of our 
training curriculum at the GAO. I think it is very important 
for us to be reflective of the society of the American people, 
and their elected representatives and so I think we are doing 
well. But like everything else, you have got to keep working at 
it, and we intend to do so.
    Senator Pryor. And are you seeing your management workforce 
becoming more diverse as well?
    Mr. Dodaro. Oh, definitely.
    Senator Pryor. Now I would like to hear from the other two 
as well, but since I have way exceeded my time, maybe we could 
just submit those for our review. But I would like to see that.
    Thank you.
    Dr. Elmendorf. Yes, Senator, we will do that.
    Senator Nelson. Thank you, Senator Pryor.

              <greek-l>GAO deg.GAO LABOR RELATIONS AND PAY

    Mr. Dodaro, I understand that the GAO and the union 
recently reached an agreement on fiscal year 2010 performance-
based pay increases. How will this agreement affect the 
performance-based pay increases already awarded to, let us say, 
the non-union workforce within the agency?
    Mr. Dodaro. We have a commitment that everybody is treated 
equally. So we are going to adjust the pay increases of the 
people in the nonbargaining unit to be the same as the people 
in the bargaining unit. It is important to be equitable, to be 
fair to all our employees, and we are committed to that.
    Senator Nelson. What impact will that have on your budget?
    Mr. Dodaro. According to the agreement, some of the costs, 
such as permanent pay increases will roll forward to the budget 
for fiscal year 2011. And a lot will depend on what the 
Congress and the President agree for the across-the-board 
increase for fiscal year 2011. Part of the issue is not only 
what we carry forward, it is what we are going to be obligated 
to give by law next year in the 2011 budget.
    So a very important principal that we had in the union 
negotiations was to not carry forward more cost than need be to 
get an agreement, and we achieved that goal.
    Senator Nelson. And as you say, that will apply equally to 
those who are outside the union, as well as those in the union?
    Mr. Dodaro. Yes.
    Senator Nelson. And will depend on what the budget of 2011 
truly applies to?
    Mr. Dodaro. Yes. In terms of what the pay increase will be 
for next year. In our budget submission we are assuming a 1.4 
percent across-the-board increase and then some other 
incremental increase for performance on top of that. But the 
across-the-board figure will be determined by the Congress and 
the President, and that was what was assumed in the budget.
    For next year we have got to pay 9 months of the cost of 
the across-the-board increase. And by law, we have to give the 
same across-the-board increase to our employees as is set for 
the executive branch, which will be a compounding factor. That 
is why in terms of your questions about a flat budget for next 
year, a lot of that would have to be absorbed in addition to 
carrying the costs forward from employees.
    In an organization like ours where 80 percent of our costs 
are people costs, a flat budget would have an impact in terms 
of hiring. We would have to scale back our hiring dramatically. 
We would have to release all of our temporary employees and 
even consider some furlough days next year if we were flat-
lined.

               <greek-l>GPO deg.GPO'S PERFORMANCE SYSTEM

    Senator Nelson. Mr. Tapella, how would it affect you? I 
mean, I don't know that you have the same union issue, but do 
you have any performance-based plans in place that you have to 
account for as well?
    Mr. Tapella. We do have performance plans in place. Do I 
understand the question correctly in terms of the flat-lining 
of the budget?
    Senator Nelson. Yes.
    Mr. Tapella. The only program that is funded directly with 
appropriations is our salaries and expenses appropriation of 
the Superintendent of Documents. We have a few vacancies there. 
So any reduction we would basically have to flat-line and not 
allow hires in that area.
    The rest of GPO is covered under the revolving fund. So we 
can manage it appropriately.
    Senator Nelson. Dr. Elmendorf.

                     <greek-l>CBO deg.PAY INCREASE

    Dr. Elmendorf. Senator, CBO employees who are paid less 
than $100,000 a year receive an across-the-board increase and 
potentially also merit-based increases. Employees above that 
level receive only merit-based increases. We believe very 
strongly in rewarding the performance of the top performers the 
most. And people who are not--luckily, at CBO, we have a 
terrific group of people. But people who, for some reason or 
other, do not perform don't receive increases.
    I think it is vitally important for us to continue to 
reward the people who are putting their hearts into this work. 
When we are hiring people, we are competing, of course, with 
other potential employers. We try very hard to keep CBO as a 
desirable place to work. I think we, in fact, won an award for 
being the third best small agency to work for, and the work is 
very exciting and important.
    But at some point, people do take account of what they are 
getting paid. The starting salaries for new Ph.D.s in 
economics--again, Ph.D.s in economics represent about 40 
percent of our workforce. The starting salaries on average in 
the country for that group has increased 5.7 percent per year 
for the last 4 years. Our salaries have not increased at that 
rate.
    So we are losing ground as it stands, and we lose people to 
other--to the private sector or to universities. We just lost a 
terrific person to the IMF, International Monetary Fund, where 
she is being paid a substantially higher salary. So I think we 
could not maintain the quality of our work without maintaining 
the quality of our people, and that requires not falling too 
far behind too quickly what they can get paid other places.
    Senator Nelson. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    I think that is an important consideration for us. And it 
is difficult at a time when we are trying to crank in on the 
budget and expenditures. But I think we realize that we are 
asking an awful lot from these professionals, and you could 
probably work some better hours out in the private sector there 
and probably make comparable or well beyond.
    So I think that is important for us, and I think that is 
one of the issues that we are seeing with the reality that we 
are facing or that we are hiring as many foreign nationals as 
we are. We can't keep our own here.
    Mr. Tapella, I have one last question, and this is as it 
relates to the Federal Digital System, the FEDsys. I don't know 
what they call it, FEDsys or FDsys, just to understand a little 
bit more about what you are doing with this digital repository 
for all Federal documents.
    With the $6 million that is requested now, will this get 
this system up and running? Where are we in understanding what 
it is going to cost us to maintain on an annual basis? Do we 
have all the technology in place to capture all that we are 
looking to with this system? Just give me an assessment of the 
readiness of this digital system.

                <greek-l>GPO deg.FEDERAL DIGITAL SYSTEM

    Mr. Tapella. I call it FDsys, other people call it FEDsys.
    Senator Murkowski. Okay.
    Mr. Tapella. We launched it this past year. So it has been 
in operation now for more than 1 year. We are doing it in 
phases. We have release 1, release 2, and then we will have 
some future releases beyond that. And as much as my inspector 
general hates the idea of it, we actually don't believe that 
FDsys will ever be done.
    When you have an electronic system that you are going to 
use as a system of record, you need to always keep it current 
and flush. As we look at technology, for example, who uses a 
floppy disk anymore? The same thing is true as we build the 
Federal Digital System. And we are building it with technology 
that can regularly be refreshed as technology changes.
    The funding that we are looking at right now for this year 
will just about what we call ``finish'' the Federal Digital 
System. We will still need one more infusion after that. The 
total cost would be $49 million we believe to ``finish the 
system,'' which is release 1, release 2, and will allow us the 
ability to submit, as well as the output.
    There are other things that we could be doing with the 
Federal Digital System, such as digitization, bringing in more 
content, and making certain that the search capabilities 
continue to improve. The Federal Digital System is replacing 
GPO Access, which was built in 1993. That was viewed as a 
closed system, and nobody thought about what would happen when 
you need to do technology refreshes. We have actually built 
that into our design map for the Federal Digital System.
    Senator Murkowski. So we have got the technologies now, but 
the technologies tomorrow may be changing is what you are 
saying. So we have got to stay on top and current with----
    Mr. Tapella. Correct. We believe that we must stay on top 
and current as we move forward with the Federal Digital System. 
And it is one of the greatest concerns I know that is facing 
many in the library community, and obviously, one of our 
programs is the Federal Depository Library Program. We know 
today that a book will last 500 years if it is properly cared 
for. What happens to electronic systems?
    And so, we have purposely built the system to make certain 
that it will never die. We have the responsibility under title 
44 to make certain that the documents of our democracy are made 
widely available to the public and kept in perpetuity. That is 
the reason why I don't believe the system will ever ``be 
done.'' However, we have designed it in such a way that we can, 
with each release, declare success.
    Senator Murkowski. Thank you, Mr. Chairman.
    That is all the questions that I have.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Nelson. I believe I have asked all the questions 
that I had wanted to ask. And so, I want to thank you for being 
here today, for your continuing service to the many taxpayers 
who support our Government and to our colleagues as you support 
them as well.
    [The following questions were not asked at the hearing, but 
were submitted to the agencies for response subsequent to the 
hearing:]
                 Questions Submitted to Gene L. Dodaro
               Questions Submitted by Senator Ben Nelson

                        FISCAL YEAR 2011 REQUEST

    Question. Mr. Dodaro, I have made it clear that I intend to hold 
the Legislative Branch to fiscal year 2010 levels in fiscal year 2011. 
What will be the effect of a flat funding rate on the operations of 
GAO?
    Answer. A flat funding rate would significantly impair GAO's 
ability to serve the Congress on the full range of issues and 
negatively impact our timely provision of services. In order to operate 
at a flat funding level (fiscal year 2010 level) in fiscal year 2011, 
GAO would need to significantly reduce planned hiring and staffing 
levels by up to 150 staff through fiscal year 2011, beginning in fiscal 
year 2010. This staffing reduction will negatively impact our ability 
to respond in a timely manner to continuing and new mandates, such as 
the Recovery Act and the annual report to the Congress on duplicative 
and wasteful programs. This would not only reduce the staffing 
resources devoted to Recovery Act oversight by almost 60 percent, it 
would also severely impact staff available to support other 
congressional engagements. In order to even maintain this reduced 
staffing level and absorb mandatory pay and non-pay inflationary 
increases in fiscal year 2011, we would also need to reduce or defer 
critical infrastructure investments including security improvements in 
our field locations and potentially implement up to 6 furlough days in 
2011.
    Question. It is not my intention to fund additional FTE during a 
flat budget year. How much additional funding would you require in 
fiscal year 2011 to maintain your current workforce--that is the number 
of employees you currently have on board?
    Answer. Our fiscal year 2011 budget request seeks only the funds 
needed to maintain our fiscal year 2010 workforce, including $579.5 
million for base staffing and $21.6 million for Recovery Act oversight. 
The requested fiscal year 2011 FTE level represents annualization of 
fiscal year 2010 activity (the full-year equivalent of maintaining our 
current staffing level in fiscal year 2011), not an increase in the 
number of employees.
    Question. Can you explain why your fiscal year 2011 request 
includes 49 additional FTE to ``maintain current staffing levels''? 
Once again, I do not intend to increase our agencies' workforces during 
the next fiscal year.
    Answer. Our fiscal year 2011 budget submission seeks only to 
maintain our fiscal year 2010 workforce. The additional 49 FTEs 
represent the annualization of fiscal year 2010 activity. There is no 
increase in staffing planned for fiscal year 2011.
    When staff come on board and leave the agency at various times 
throughout the year, this results in less than a full year's cost and 
associated FTE usage in the year that the activity occurs--in this case 
fiscal year 2010. In fact, as most of our entry level staff start in 
the 4th quarter after graduation, while our attrition occurs throughout 
the year, this usually equates to a lower FTE in the first year of 
hiring, but requires a funding and FTE increase in the follow-on year, 
to ensure we have full costs/FTEs for the on-board workforce.
    Question. Has GAO's attrition rate declined as a result of the 
current economic situation and unemployment rate? Have you taken any 
discrepancy in your attrition rate into account since putting together 
your fiscal year 2011 budget request?
    Answer. Yes, attrition has declined over the last few years and we 
have considered this in our budget request. GAO experienced an annual 
attrition rate of 10 percent of our staff between fiscal years 2004 and 
2008. In fiscal year 2009, attrition dropped to 6 percent (190 staff). 
Our fiscal year 2010 operating plan assumed a slight increase in 
attrition to 225 staff and our fiscal year 2011 budget request assumed 
an increase in attrition to 235 staff. However, based on current 
activity in fiscal year 2010, we have revised our attrition assumptions 
and reduced the fiscal year 2010 estimate to about 200 staff. This 
change increases our costs by about $2 million a year and we've taken 
appropriate steps to adjust for this in our operating plan. Our fiscal 
year 2011 estimate remains at 235 staff.

                  GAO'S WORK ON CAPITOL POLICE ISSUES

    Question. Mr. Dodaro, we appreciate your agency's work for this 
subcommittee in assisting us with your sister Legislative Branch 
agencies. Your staff has done extensive work on the many challenges 
facing the Capitol Police, particularly in identifying weakness in the 
Capitol Police's financial management operations.
    What would you say is the biggest challenge facing the Capitol 
Police right now?
    Answer. The Capitol Police currently face three significant 
challenges--
  --Effectively managing its workforce and other resources to satisfy 
        security requirements and protect members and the Capitol 
        Complex within available resources.
  --Effectively formulating, approving, and executing reliable and 
        supported budgets.
  --Establishing and maintaining an effective internal accounting and 
        administrative control framework.
    Question. Did your review of the Capitol Police's fiscal year 2011 
budget request, conducted at this subcommittee's direction give any 
indication that they had under-budgeted their personnel needs in fiscal 
year 2011?
    Answer. GAO's review detected indications of problems with under-
budgeting for salaries for fiscal year 2011. During the course of our 
work, we detected three errors: (1) a discrepancy between the budget 
request Capitol Police submitted to Congress and what it submitted to 
OMB to be included in the President's budget, (2) a calculation of 
salaries that did not include pay differentials, and (3) a potential 
compounding of these errors across fiscal years.
  --After comparing information provided by USCP as support for what 
        was reported in the President's Budget Appendix, we identified 
        a discrepancy between the two documents. The amounts reported 
        in the President's budget were $5 million higher for benefits 
        and $5 million lower for salaries than what were shown in the 
        supporting information provided by the USCP. The Capitol Police 
        officials's February 17 explanation was incomplete and, after 
        we asked further questions, we were told that the information 
        reported in the President's budget was wrong.
  --We found a second error when we reviewed a breakdown of benefits 
        for fiscal year 2009 which was used in developing the fiscal 
        year 2011 budget request. The benefits information provided to 
        us by the USCP included amounts for night, Sunday, and holiday 
        pay differentials that should have been reported as salary. 
        This error resulted in an under-budgeting for salaries. In 
        addition, since amounts requested for certain benefits are 
        calculated as a fixed percentage of salaries, understating the 
        amount requested for salaries also leads to understating the 
        amount needed for benefits.
  --The error in fiscal year 2009 information raised questions about 
        whether it was repeated and carried forward into fiscal years 
        2010 and 2011. To the extent this occurred, the understatement 
        would have been repeated.
    Question. What can you do to further assist us in straightening out 
the Capitol Police's financial issues?
    Answer. GAO has several efforts underway to assist the Congress and 
the Capitol Police Board in overseeing the Capitol Police's efforts to 
assess security requirements, manage its workforce, and identify and 
resolve internal accounting and administrative control weaknesses and 
deficiencies.
  --GAO is assessing how the Capitol Police plans, tracks, and manages 
        use of its sworn officers, including overtime and the Capitol 
        Police's process to determine security requirements. GAO will 
        also identify what existing security technologies could enhance 
        the Capitol Police's ability to protect the Capitol Campus. In 
        a related effort, GAO will review the processes and controls 
        associated with authorizing, recording, and approving employee 
        time charges, including overtime charges, and how resulting 
        salary amounts are charged to available appropriations and 
        accounted for and reported by the Capitol Police.
  --GAO in coordinating with the Capitol Police Inspector General will 
        monitor and review the Capitol Police Inspector General's 
        ongoing audit of problems and related weaknesses with the 
        Capitol Police's process for formulating and approving its 
        fiscal years 2010 and 2011 budget requests.
  --GAO will review recently identified internal control weaknesses and 
        deficiencies to determine their current status and to identify 
        underlying causes for their often persistent and pervasive 
        nature. In doing so, GAO will consider the Capitol Police's 
        internal accounting and administrative control framework; 
        evaluate the status of corrective actions to deal with control 
        deficiencies, including those associated with prior GAO 
        recommendations; and explore systemic reasons why control 
        weaknesses and deficiencies are not promptly resolved.

                              ARRA FUNDING

    Question. When we included $25 million in the American Recovery and 
Reinvestment Act, it was not intended to permanently augment GAO's core 
base. It appears that your request for $21.6 million to cover ARRA-
related work is moving us in the direction of expanding your base.
    How did you arrive at the $21.6 million figure to continue ARRA-
related work?
    Answer. GAO's staffing strategy to meet the ARRA mandates 
recognizes the temporary nature of these oversight responsibilities and 
assumes that there will be no increase in base resources. While the $25 
million included in the Recovery Act is only available through 
September 30, 2010, our statutory oversight responsibilities for 
billions of dollars of funding to the states and localities continue 
until all funds have been distributed--estimated through 2019. For that 
reason, about 50 percent of the staff devoted to ARRA work are 
temporary staff (reemployed annuitants and term hires) who can be 
released once the mandates are completed. The remaining staff are 
permanent GAO staff. Our staffing strategy in the out-years assumes 
that the permanent GAO staff will be reabsorbed in our base by not 
fully hiring behind future attrition.
    Our fiscal year 2011 request includes funds to maintain the current 
staffing level of 144 FTEs consistent with the funds provided in fiscal 
year 2009 and spent in fiscal year 2010. GAO expects to maintain this 
staffing level through fiscal year 2012 to address the mandatory 
oversight of the largest amount of the remaining Recovery Act funds 
estimated to be outlayed during that time. As approximately 85 percent 
of Recovery Act funding to programs administered by the states and 
localities is estimated to be paid out by the end of fiscal year 2012, 
GAO would start to reduce the staffing below the 144 FTE level by 
absorbing GAO staff back into the base behind attrition and phasing out 
the staff necessary to address the changing nature of the Recovery Act 
funding. Our expectation is that by the end of the required mandates, 
all permanent GAO staff will have been absorbed back into our base with 
no increase to the base resources to accommodate this approach.
    Question. How much of the $25 million included in the ARRA 
legislation have you already spent? My understanding is around $4 
million. Can you realistically spend the remaining $21 million by the 
end of this fiscal year?
    Answer. In fiscal year 2009, GAO spent $4.2 million. Through the 
2nd quarter of fiscal year 2010, we have spent $13.7 million and expect 
to spend the remaining $11.3 million to cover costs through the end of 
fiscal year 2010.
    Question. How much of the ARRA workload could you absorb within 
your own workforce?
    Answer. GAO could not absorb any of the ARRA workload within our 
own workforce without severely impacting our current workload to meet 
other congressional mandates and requests. We would need to seek 
legislative relief to the existing mandates in the Recovery Act to 
align with available staffing and funding.
    Question. What will you do if this Committee does not provide the 
$21 million for recovery-related work?
    Answer. We are happy to work with the committee to identify 
alternative funding vehicles. In the event that we do not receive 
funding for the statutorily-mandated recovery-related work, GAO would 
first reduce the FTEs devoted to Recovery Act oversight by almost 60 
percent by eliminating temporary staff. This would negatively impact 
our ability to meet the reporting requirements of the Act and require 
that we seek legislative relief to the Recovery Act mandates to align 
with available staffing and funding.
    We would also need to absorb the permanent GAO staff currently 
devoted to Recovery Act oversight back into the GAO base which would 
impact our ability to maintain our planned workforce levels necessary 
to be responsive to other congressional requests and mandates.
    Question. How many people have you hired using stimulus funding? 
How many of these hires do you anticipate bringing onboard as permanent 
GAO staff?
    Answer. We have hired 74 temporary reemployed annuitants and staff 
under term appointments. A handful of temporary staff have been 
identified as potential candidates to fill existing GAO vacancies 
behind attrition. However, it is not our intention to bring the 
majority of these staff onboard as permanent GAO staff nor grow the 
base.
    Question. You identified $8 million in savings from non-recurring 
items funded in fiscal year 2010 which you assigned to ``reinvestment 
of savings'' in your budget request. These items include upgrades to 
your information technology systems and repairs to your building. Could 
this funding be assigned to ARRA mandated work instead?
    Answer. We do not believe this to be in the best interest of the 
agency. In order to maintain the technology infrastructure supporting 
our staff and to address our management weaknesses in information 
security, human capital and physical security, it is essential that we 
be able to reinvest savings from non-recurring items and efficiencies 
in these areas. Planned investments will allow us to protect the safety 
and security of field-based staff, further enhance our information 
technology programs to gain productivity and increase effectiveness, 
and continue our efforts to enhance the energy efficiency of our 
facilities.

                               GAO UNION

    Question. I understand that GAO and the Union have recently reached 
an agreement on the fiscal year 2010 performance-based pay increase. 
How will this action affect the performance-based pay increases already 
awarded to your non-union workforce? How much will this additional 
increase cost?
    Answer. To treat all employees equitably, GAO extended the 
provisions of the Union agreement on fiscal year 2010 performance-based 
pay increases to non-Union staff. This will cost GAO an additional 
$724,000.
                                 ______
                                 
                Questions Submitted to Robert C. Tapella
               Questions Submitted by Senator Ben Nelson

                                 BUDGET

    Question. Mr. Tapella, how will GPO respond to no funding increase 
in fiscal year 2011? Can you continue to run your agency on the fiscal 
year 2010 level?
    Answer. GPO will be able to conduct operations with funding at the 
fiscal year 2010 level, or $147.5 million. At this level, full funding 
should be provided for our request for the Congressional Printing and 
Binding Appropriation. For the Salaries and Expenses Appropriation of 
the Superintendent of Documents, our request could be reduced by 
$26,000 to reflect a pay raise factor or 1.4 percent as requested in 
the President's budget, instead of the factor of 1.6 percent we used. 
Our request for this account could also be reduced by $1.5 million if 
the Appropriations Committees approve our request to transfer forward 
this amount in the unexpended balance of this account from fiscal year 
2005. Funding at the fiscal year 2010 level would provide approximately 
$8.1 million for GPO's revolving fund.
    Question. Your fiscal year 2011 request for the revolving fund 
totals $25.7 million and includes everything from workforce retraining 
to building repairs. Are any of these items critical needs for your 
agency given that we're trying to maintain a flat budget this year?
    Answer. With approximately $8.1 million for the revolving fund for 
fiscal year 2011, we would fund the Federal Digital System (FDsys) at 
$5.1 million and provide $1 million each for our advance printing 
technology, continuity-of-operations (COOP), and elevator repair 
projects.
    Question. Please explain the $3.2 million request for workforce 
retraining and development programs. Can this be deferred?
    Answer. Our request for employee retraining projects includes $1 
million to ensure that all personnel involved in the printing process 
receive training to maintain core competencies in related crafts and to 
build on new competencies as emerging technologies are identified; 
$500,000 for provide a curriculum for supervisors to hone leadership 
and management skills and incorporate the latest trends from throughout 
public and private sectors; $500,000 provide basic-skills training for 
our workforce. as we modernize our technology and implement our vision 
of GPO's digital future; $500,000 for courses to develop specialized 
experience and technical skills in financial management; and $500,000 
to equip employees with the skills needed to communicate GPO's mission 
in the production of secure and intelligent documents, identify 
potential revenue streams, identify future trends within the industry, 
and offer these new products to congressional and agency customers, and 
$250,000 to provide annual training needs assessments and program and 
curriculum evaluation for all training provided, develop models to 
target specific training modules for just-in-time instruction, and 
provide specialized training to operators and users of business support 
technology programs. These programs have not been identified as 
priorities under GPO's flat funding scenario for fiscal year 2011.

                         FEDERAL DIGITAL SYSTEM

    Question. GPO is requesting over $6 million in fiscal year 2011 for 
the Federal Digital System--its new online data system. What is the 
status of the implementation of this system?
    Answer. Release 1, which is the foundational content management 
system assuring preservation and permanent public access to online 
Federal information, is nearing completion. The content from GPO Access 
will be completely migrated to FDsys in the next 2 months and a 
failover instance for continuity of access, or backup system, will be 
completed in August. At that point, we will start decommissioning GPO 
Access, making FDsys the system of record, with shutdown of GPO Access 
targeted for December 2010.
    Question. How much has been spent on this effort so far?
    Answer. Approximately $37.5 million has been spent so far, with a 
projection of $41 to $42 million to complete Release 1 by the end of 
fiscal year 2010.
    Question. How much more funding does GPO need to complete this 
system?
    Answer. Approximately $8 million will be required to complete 
Release 2, which is the submission functionality of the system, by the 
end of fiscal year 2011. However, if the current team cannot be 
maintained due to budget constraints, the time to develop Release 2 
will extend and the total cost may increase as a result of retraining. 
Assuming availability of the necessary funds, the total investment in 
FDsys by the end of fiscal year 2011 will be $49 to $50 million.
    Question. Why has 20 percent of your information still not been 
migrated to the new format?
    Answer. The process to migrate content to FDsys is complex. We have 
been migrating content in phases to ensure that the process is without 
errors and meets the requirements.
    Question. Wasn't the original estimate for this system $29 million? 
What is causing the cost overrun?
    Answer. The initial cost estimate for the core functionality of 
FDsys was estimated in 2004 to be $29 million. The primary cause of the 
cost overrun is a result of data migration activities to move GPO 
Access collections to FDsys. These were not a part of the original cost 
estimate and the effort has been much more difficult than anticipated. 
The cost of this effort alone will be about $11 million by the time we 
complete the migration from GPO Access to FDsys.
    Question. What will the annual operating costs be for this system?
    Answer. Initially, the annual operating cost will be about $3.25 
million. These costs consist of software license maintenance as well as 
the labor to maintain the system, at approximately $1.75 million per 
year, plus the costs of replacing aging hardware and software over 
time, at approximately $1.5 million per year. The annual operating 
costs could go down in 2-3 years as GPO staff assume work currently 
performed by contractors. Future development costs, which are optional, 
could run in the neighborhood of $4.75 million per year.

                          PASSPORT PRODUCTION

    Question. How is GPO's current demand for passport production? Are 
you fully implementing your production capability?
    Answer. The State Department initially requested that GPO produce 
11 million passports during fiscal year 2010. Since then they have said 
they plan to order an additional 2 million passports for the remainder 
of fiscal year 2010, bringing the total to 13 million books. The 
Department has also notified the GPO that they intend to budget and 
order 15 million passports in fiscal year 2011. GPO has the capacity to 
produce 20-24 million passports annually given the equipment and 
personnel on hand without resorting to overtime. As GPO's security and 
intelligent document business grows, particularly in the smart card 
area, we intend to utilize any available labor resources to staff the 
card equipment and processes.
    Question. As a follow up to a conversation we had during last 
year's hearing, have you given any further consideration to the 
production of foreign passports?
    Answer. We have explored the possibility of producing passports for 
foreign nations and have found several challenges that need further 
consideration before we can proceed.
    Question. What challenges do you face in this undertaking?
    Answer. Currently, there are statutory limitations on GPO producing 
non-U.S. Government printing. We have not been able to determine 
whether a Federal agency with the capability to conduct bilateral 
international agreements would be willing to act as a broker for our 
services with foreign nations. There also are unresolved questions 
concerning the acceptability of providing foreign nations with access 
to GPO's passport production facilities and proprietary processes.

                          GPO BUILDING ISSUES

    Question. You are requesting $2 million to initiate the process of 
relocating production operations from GPO's building 4 to the main GPO 
complex. Why are you doing this?
    Answer. The primary benefit is avoiding one-time building 4 
infrastructure improvement costs and investing those resources in more 
energy-efficient equipment and system upgrades within the main GPO 
complex to support passport operations. Infrastructure investment of 
one-time facilities costs to building 4 would be for utility and HVAC 
upgrades, new windows, and general building maintenance improvements. 
The passport operation within the main GPO complex would utilize more 
energy-efficient enterprise and lower operating costs from variable 
speed drives, energy efficient lighting, and variable speed air 
handling units with savings realized year-over-year.
    Question. What will this investment buy us?
    Answer. GPO could offer building 4 space under space-sharing 
agreements to other legislative branch agencies for storage or light 
industrial use, offsetting the annual operating cost to idle the 
building and recover costs. A full return-on-investment study would be 
necessary to completely analyze the cost benefit of renovations to all 
floors into class A office space for lease purposes.
    Question. What is the total cost of this proposed relocation?
    Answer. In addition to the initial $2 million appropriation, which 
would cover relocation of current operations in the main GPO building 
to accommodate the move, costs would be incurred for passport and 
warehouse operations equipment relocation, estimated at $2 to $6 
million (depending on whether one or both passport production lines are 
moved); construction of new office space for training and bindery 
operations estimated at $850,000; and construction of a new wastepaper 
facility to house the secure waste processing system within the main 
GPO complex, at an estimated cost of $500,000 to $1 million. Other 
variables are the requirements and schedule of the State Department and 
costs to install equipment through an exterior building window that is 
too big for the freight elevator.
    Question. What is your agency doing to support environmental 
sustainability?
    Answer. GPO has been involved in environmental sustainability 
activities for many years regarding paper, ink, emissions reduction, 
energy efficiency, digital dissemination, waste management, recycling, 
and related measures. Some of the highlights of GPO's recent 
sustainability activities include the following:
  --With the approval of the Joint Committee on Printing (JCP), in 2009 
        GPO increased the recycled content of the newsprint to print 
        the Congressional Record and the Federal Register to 100 
        percent from 40 percent with no runability or printability 
        problems. The 100 percent recycled paper is being supplied at 
        no increased cost over the previously supplied 40 percent 
        recycled paper. GPO is also evaluating responses to a request 
        for proposal for the most sustainable copier paper available in 
        today's market.
  --GPO has established a voluntary partnership with EPA's WasteWise 
        program to baseline and monitor waste reduction and prevention 
        activities. We have reduced our landfill waste by issuing a 
        contract to ensure all of our wood waste (pallets, skids, and 
        old furniture) is recycled. Currently, GPO's wood waste is 
        being used for mulch in Maryland.
  --Over the past year, GPO has reduced VOC emissions in plant 
        operations by 86 percent from the previous rate, which also 
        reduced our purchasing costs for fountain solution by 22 
        percent.
  --Using appropriations to the revolving fund provided for fiscal year 
        2009, GPO installed roughly 100,000 square feet of an 
        environmentally sustainable roof on its main complex buildings. 
        The highly reflective roof coating provides a cool roof 
        environment that not only reduces cooling demands inside the 
        building but improves the life expectancy and efficiency of 
        rooftop equipment. Additional roof repairs will be carried out 
        as necessary using available funds in the revolving fund.
  --This past year, GPO received 21 new vehicles including 18 
        alternative flex fuel (E85) vehicles and two new hybrid 
        vehicles through funding provided to the General Services 
        Administration as part of the stimulus bill.
  --FDsys utilizes 50-watt processors instead of the standard 80-watt 
        processors. This decision will realize more than $12,000 per 
        year in energy savings, as these servers operate at a much 
        higher efficiency.
  --GPO has established an Environmental Protection and Regulatory 
        Affairs Committee consisting of key leaders from each business 
        unit to ensure attention to top sustainability initiatives.
    Question. What is the most pressing infrastructure challenge you 
face at your building?
    Answer. Currently we are continuing with our program of elevator 
repairs. The elevators are essential to movement of personnel and 
materials in our 8-story main complex, and are a life/safety measure 
where the rapid evacuation of persons with critical medical conditions 
is concerned.

                               COOP PLAN

    Question. Can you explain the $2.2 million for Continuity of 
Operations funding you are requesting in fiscal year 2011? Given our 
current budget situation, is this something that can be deferred?
    Answer. GPO has identified continuity-of-operations (COOP) funding 
as a priority for fiscal year 2011, at a level of $1 million. The $2.2 
million originally requested included funding for a distant site as 
well as enhancements to GPO's offsite computer systems. Recently GPO 
received feedback from Senate staff that a mobile strategy that does 
not rely on fixed sites to support the production needs of Congress 
should be considered. We are beginning to assess the costs and 
implications of supporting Congress through so-called ``fly-away'' 
kits. This would require GPO to establish production capabilities from 
pre-packaged equipment and supplies that would be unpacked and an empty 
facility set up for that purpose. Of the $1 million identified as COOP 
priority funding, approximately half would be dedicated to this 
purpose.
    Additionally, there is a requirement to complete the needed 
redundancy for GPO critical operations at the Legislative Branch 
Alternate Computer Facility (ACF) in support of Congress, including 
completion of a backup system for FDsys. The other half to of the 
funding provided to COOP would be devoted to this purpose.
                                 ______
                                 
                Question Submitted by Senator Mark Pryor

    Question. Mr. Dodaro, I do have a question for you about diversity 
there in your office, in your agency. And I guess I would like to ask 
all three if you have a diversity plan, but specifically for you, I 
would like to know how your efforts at diversity are going?
    Answer. In compliance with the directive in the Joint Explanatory 
Statement accompanying H.R. 1105, providing omnibus appropriations for 
fiscal year 2009, GPO has adopted a formal written policy, in 
accordance with all applicable Federal laws, to develop and institute 
an affirmative action plan with specific goals and objectives to 
further the ability of women, minorities, and individuals with 
disabilities to achieve balanced representation within the Legislative 
Branch workforce and management. GPO's Affirmative Employment Plan has 
adopted many of the elements set forth in the Equal Employment 
Opportunity Commission's Management Directive 715 to ensure that all 
employment decisions are free from discrimination.
    GPO has made substantial gains in diversity in its management 
ranks. Employees at the Grade 15 level currently are 65 percent white 
and 35 percent minorities. In the last report to Congress submitted in 
2008, 32 percent of positions at the Grade 15 were held by females; 
females now represent 36 percent of the employees at this grade. This 
demonstrates small but steady strides that GPO is making to increase 
its diversity at the higher grade levels.
    Grade 13 supervisors are the feeder group for managerial positions 
and this grade has experienced a significant change. The placement of 
qualified minorities and females into supervisory grade 13 positions 
will prepare them to become GPO's future leaders. Presently, 51 percent 
of Grade 13's are white and 49 percent are minorities. In this grade 36 
percent of employees are male and 67 percent are female.
    During my tenure I have made a personal commitment to increasing 
diversity. I have conveyed this commitment in a meeting with senior 
management, and I have issued a policy statement to all employees 
indicating the importance of diversity. To further implement GPO's 
support of diversity, diversity has been included as an element in 
GPO's Strategic Vision.
    GPO has continued its policy of outreach to colleges and 
universities that will strengthen our applicant pool with highly 
qualified diverse candidates. These colleges include Florida A&M 
University, the University of Texas at El Paso, the University of New 
Mexico, and the University of California at Berkeley.
    GPO also recruits at the National Technical Institute for the Deaf 
for qualified employees, to include persons with disabilities in our 
diversity program. The Equal Employment Opportunity Commission (EEOC) 
has indicated that the percentage of people with disabilities in the 
Federal Government is decreasing. However, GPO continues to rank as one 
of the top Federal employers for people with disabilities. As of 
September 30, 2009, GPO had a workforce of 2,322 employees. Of these, 
almost 7 percent are individuals with a reportable disability, and of 
them approximately 1.5 percent are individuals with targeted 
disabilities. By comparison, most Federal agencies have fewer than 1 
percent of their employees with targeted disabilities. These employees 
work in business units throughout GPO.
    In addition to our recruitment plan, we have entered into a 
strategic alliance initiative with California State University at Los 
Angeles, which is a Hispanic Serving Institution. This initiative 
allows university seniors to develop an actual design project that 
prepares them for the job market and provides the organization with an 
actual product.
    Where veterans are concerned, GPO continues to be involved with the 
Coming Home to Work Initiative. Through this initiative with the 
Department of Veterans Affairs, eligible service members and veterans 
are placed in positions at GPO to gain work experience.
    GPO carries out a number of efforts to ensure that supervisors and 
managers know the agency's perspective on diversity and equity in the 
workplace. GPO's Director of Equal Employment Opportunity (EEO) and 
Deputy EEO Director meet with business unit managers semi-annually to 
discuss their organizations' diversity and other EEO-related issues. 
During these meetings we discuss their current workforce statistics and 
possible strategies to address any noted imbalances.
    GPO supervisors and managers are also required to participate in 
training on EEO and Discriminatory Harassment. I personally address 
each of these sessions to inform supervisory personnel of my commitment 
to EEO, and I use these classes as a mechanism to impart the 
significance of diversity and equality in GPO's workplace.
    GPO clearly recognizes the significance of attaining diversity at 
GPO and we are firmly committed to achieving this goal.
                                 ______
                                 
              Questions Submitted to Douglas W. Elmendorf
               Questions Submitted by Senator Ben Nelson

                      FISCAL YEAR 2011 FLAT BUDGET
 
   Question. How will your agency cope with a flat budget in fiscal 
year 2011?
    Answer. Fiscal year 2011 funding equal to the 2010 appropriation of 
$45.2 million would represent a reduction in funding for CBO because 
the agency's 2010 operations are being financed, in part, by funds from 
a 2009 supplemental appropriation. In total, CBO's 2010 funding comes 
to about $46.4 million.
    Most of CBO's budget is devoted to personnel. Because a flat fiscal 
year 2011 budget would, in practical terms, represent a reduction in 
CBO's funding, the agency would need to reduce its full-time 
equivalents (FTEs) by 9 from the 258 proposed in its fiscal year 2011 
budget request--eliminating the 4 additional positions requested for 
next year and another 5 that are funded this year. Those reductions 
would save about $1.5 million. They would, however, represent a setback 
in terms of CBO's ability to provide estimates and analysis for the 
Congress as it addresses major issues on the legislative agenda. With 
the support of the Congress, CBO staffing has expanded in recent years, 
especially in the health area. But the needs for estimates and analysis 
have continued to expand as well, and despite extraordinary efforts by 
CBO staff, the agency could not satisfy all the requests for estimates 
for healthcare proposals. A reduction in staffing below the current 
level would make it more difficult to meet future needs of committees 
and Members. Congressional deliberations on topics such as climate 
change, immigration, the defense budget, financial reform, and deficit 
reduction, the new statutory Pay-as-You-Go requirements, new issues 
that cannot even be foreseen now, and CBO's ongoing responsibilities to 
produce hundreds of formal cost estimates and even more informal 
estimates will require substantial efforts on CBO's part. Faced with 
reduced staffing, CBO would work with the Congress to prioritize 
requests for analysis to ensure that the most critical requirements 
were addressed in a timely way.
    In addition, CBO would have to reduce information technology (IT) 
spending by $0.5 million--primarily in the areas of communications, 
software development, disaster recovery, equipment replacement, and 
commercial data. Also, library operations would be reduced by $0.1 
million--primarily in the area of online subscription services.

                            HEALTHCARE STAFF

    Question. Over the past few years, CBO has increased its capacity 
in the healthcare area. Now that the legislation has passed, do you 
expect to transition back to less staff in that area? How do you 
envision managing that transition? What happens to staff hired for 
healthcare expertise?
    Answer. CBO was able to meet the incredible demands placed on the 
agency for healthcare analysis and cost estimates over the past 2 years 
only because many of the agency's health staff frequently worked 7 days 
a week, often 12 to 15 hours a day (and sometimes more), for a 
significant portion of those 2 years. Even so, CBO struggled to keep 
pace with the demand for cost estimates and other analyses related to 
healthcare. As the Congress grapples with the long-term budgetary 
pressures facing the nation, stemming to a significant degree from 
rising healthcare costs, and with the issues that will arise regarding 
implementation of the new healthcare legislation, the need for CBO 
analyses of health issues is likely to remain great. We anticipate that 
the staff will be quite busy responding to requests for estimates and 
analyses, and carrying out the research necessary to produce such 
responses--but, hopefully, at a more measured pace than what was 
necessary in recent months.
    There are still many unanswered requests from Members of Congress 
about various policy proposals and their potential effects on both the 
budget and the private health insurance market. In addition to 
preparing analyses for specific Congressional requests, CBO hopes to 
conduct modeling and research to address a variety of health policy 
questions that will allow the agency to provide useful information to 
the Congress for future legislative efforts in 2011 and subsequent 
years. Because the healthcare arena is complex, significant lead time 
is necessary to prepare for a broad range of potential legislative 
action. For example, a key reason that the agency was able to prepare 
several dozen estimates of major health insurance proposals in 2009 is 
the fact that CBO spent considerable effort in 2008 and prior years to 
develop its health insurance modeling capability.
    CBO expects that the analysts at the agency who work on health 
issues will be busy and fully engaged for the remainder of this year 
and in fiscal year 2011. A few of the contributors to CBO's health 
team's work over the past year were doing ``double-duty'' while they 
were also working on their ``regular'' responsibilities of covering 
issues besides healthcare. Some of those members of the large 2009-2010 
health team may return to working solely or primarily on legislative 
issues unrelated to healthcare. CBO expects that its full-time health 
analysts--whether recently hired or long-time CBO staff members--will 
not face any shortage of interesting and challenging work in the near 
future.

                   ROLE IN NEW HEALTHCARE LEGISLATION

    Question. How do you see your role during the implementation of the 
new healthcare legislation? What, if any, difference in required 
expertise do you envision needing?
    Answer. As a Congressional support agency, CBO does not have a 
direct role in implementation of the new law. However, the agency 
recognizes that there is very keen interest in the Congress for 
information about how the law will be implemented and how the 
combination of regulatory actions and the behavior of states, private 
organizations, and individuals will affect spending and receipts for 
the Federal government through the Medicare and Medicaid programs, 
through the new private insurance exchanges, and through other health-
related programs created or modified by the legislation. As part of its 
Congressionally mandated efforts to prepare baseline projections of 
spending and receipts under current law, CBO will need to gather data 
and update a large number of budget projection models. Those efforts 
will require an extensive amount of work over the next few years; and 
the focus of that work will evolve as CBO analysts learn more about how 
the Department of Health and Human Services is carrying out the myriad 
provisions of the new law.
    CBO has worked hard to hire and develop a diverse staff of health 
policy analysts. The current group of such analysts is well suited to 
conducting research and developing budget-oriented models related to 
the implementation of the new law and any potential legislative 
revisions that might be considered by the Congress.

                       SUPPLEMENTAL FUNDING SPENT

    Question. Of the $2 million provided in the fiscal year 2009 
supplemental appropriations bill, how much has CBO spent?
    Answer. CBO has spent $1.5 million of the $2 million in 
supplemental funding. The agency anticipates spending the remaining 
balance by September 30, 2010.

                     BENEFITS OF WORK FOR CONGRESS

    Question. What changes were implemented at CBO with the 
supplemental funding which benefits your work for Congress?
    Answer. One significant use of the supplemental funds was to 
replace or upgrade computers used by health analysts. CBO analysts 
utilize a variety of computer models to help estimate the impact and 
cost of various healthcare proposals. Numerous iterations are typically 
required to assess the effect of changing multiple variables, and 
before receipt of the supplemental funds, model runs for a particular 
proposal consumed many hours. The new computer equipment acquired with 
the supplemental funding significantly reduced turnaround time for 
model runs, enabling analysts to respond to inquiries from the Congress 
much more rapidly. Health models that previously ran in 10 hours took 
only 2 hours to run, and models that took 2 hours finished in 15 
minutes.
    CBO was also able to accelerate the hiring of additional staff, 
which enabled the agency to respond more quickly to Congressional 
inquiries on health issues. In addition, the agency was able to reward 
its employees who were engaged in the health efforts with performance 
bonuses for the grueling almost around-the-clock, 7-days-a-week work 
that was necessary to meet the legislative schedule. Those bonuses 
boosted morale and thereby helped CBO to sustain that intense effort 
over a period of many months.
    Also, CBO purchased actuarial services that enabled the agency to 
consult with experts in the areas of actuarial science and health 
insurance. That assistance was valuable to CBO in estimating the 
effects of options involving differing packages of insurance benefits 
and variations in their actuarial value or scope of covered services, 
and proposals to reshape the delivery of healthcare.

                     NEW FTES FOR FISCAL YEAR 2011

    Question. Why are you requesting four additional FTEs in fiscal 
year 2011?
    Answer. Now that comprehensive health legislation has been enacted, 
the nature of healthcare analysis at the agency changes some, but it 
does not go away. CBO will now need to make regular budget projections 
for the new and expanded Federal healthcare programs, and it will need 
to estimate the budget costs and other consequences of contemplated 
changes to those programs. In addition, CBO will probably need to 
respond to Congressional interest in exploring other possible changes 
to the healthcare system. Continued large Federal budget deficits and 
the key role of rising Federal healthcare spending in boosting future 
deficits ensure that health issues will remain central to the 
Congress's deliberations.
    With the staffing level as it was, CBO's health analysts produced 
the quantity of health analysis that they did only by adopting an 
almost round-the-clock, 7-day-a-week schedule, which could not have 
been maintained. And even with that extraordinary effort, the quantity 
of analysis that was produced was not sufficient to meet the needs of 
many Members of Congress. The formidable work that still remains to be 
done in analyzing heathcare is something that CBO hopes to undertake in 
a sustainable fashion.
    Three of the four additional staff that CBO is requesting would go, 
in some combination, to the Budget Analysis Division and the Health and 
Human Resources Division. If the needs for health analysis permit, CBO 
might reallocate some analysts in the Health and Human Resources 
Division from work on healthcare to work on income security and 
education--an area in which CBO has fewer analysts than necessary to 
meet Congressional needs.
    The fourth additional FTE requested is for the Management, 
Business, and Information Services Division. That group includes IT 
personnel, editors, Web personnel, financial managers, and others. As 
CBO has expanded its analytic staff in the past couple of years, the 
agency has added some staff in those support functions as well. The 
additional position would provide administrative support to enable 
senior members of the staff to focus more effectively on their core 
responsibilities.

                    BIGGEST CHALLENGE MOVING FORWARD

    Question. What do you see as CBO's biggest challenge moving 
forward?
    Answer. CBO faces a number of significant challenges that we are 
working hard to meet. One such challenge is a growing demand for 
analyses of impacts of legislation beyond just budgetary effects. For 
example, in the case of the recently enacted healthcare legislation, 
there was great interest in proposals' effects on health insurance 
premiums and on the nation's total spending on healthcare. (We were 
able to address questions on the first but not on the second.) There 
has also been much interest in the effects of climate policies on 
employment and economic growth. (CBO has produced reports on both of 
those topics.) But producing such information on the basis of careful 
research and analysis can be both difficult and time-consuming, which 
makes it particularly challenging to produce useful results in time for 
Congressional consideration of the legislation in question. In order to 
accomplish that objective, we need to anticipate the issues that will 
arise and the types of analysis that will be requested far enough in 
advance to allow us time to build a proper analytical foundation so 
that CBO's analysis can be both well-thought-out and timely. We 
regularly seek guidance from the budget committees and others as to the 
particular issues that are likely to need CBO's attention.
    Another significant challenge is recruiting and retaining high-
quality staff, a vital ingredient to CBO's success. This is not a new 
challenge, but is one that has to be met every year if we are to 
maintain or enhance the quality of CBO's work. It is a difficult 
challenge to meet, however, and especially so for Ph.D. economists. The 
market for economists is very competitive; salaries are higher in the 
private sector, in academia, and at the Federal Reserve and some other 
government agencies; and many economists do not think of working for 
the government when they first start job-hunting. We continue to 
recruit aggressively and to strive to maintain a workplace environment 
that will be attractive both to the current staff and to potential new 
hires.

                       SHIFT RESOURCES INTERNALLY

    Question. Besides hiring additional FTEs, have you been able to 
shift resources internally to better meet Congress's growing demand for 
your services?
    Answer. CBO frequently adjusts staff assignments in order to 
respond to changing legislative priorities--sometimes for a period of 
weeks or months, sometimes for longer periods. In the case of 
healthcare, the agency shifted the responsibilities of numerous staff 
members during the past 2 years in order to meet the great need for 
analysis in that area. In the past year, we have also shifted resources 
into work on the government's involvement in financial markets, 
nutrition assistance, climate change, and student loans. In fact, 
because of the growing need for analysis of the government's financial 
commitments, we are establishing a separate Financial Analysis Division 
in order to more effectively focus resources in that important area.

                RESTRICTIONS IN HIRING FOREIGN NATIONALS

    Question. Please describe why section 704 of the 2010 Omnibus 
Appropriations bill, relating to restrictions on the hiring of foreign 
nationals in government agencies, is detrimental to your agency. Is 
there not enough talent within the United States to support your 
agency's needs?
    Answer. Section 704 effectively eliminates the ability for CBO to 
hire foreign nationals who are not permanent residents. This 
restriction has a particular effect on CBO's ability to hire recent 
graduates with Ph.D.s in economics, because more than half of such 
graduates are foreign nationals. In 2008 (the most recent data 
available) 1,091 people received Ph.D.s in economics in the United 
States; of those, only 405 were citizens or permanent residents of the 
United States. Eliminating access to the majority of these graduates 
makes it tremendously difficult to recruit qualified candidates.
    This market is particularly important to CBO because approximately 
40 percent of the agency's staff members hold Ph.D.s in economics. 
CBO's Ph.D. economists conduct economic research and policy analysis of 
Federal activities with the objectives of assessing the risk, costs, 
and consequences of these activities for the Federal government and for 
the economy.
    The market for Ph.D. economists is very competitive. Most new Ph.D. 
economists, 60 percent, go to academia, and 18 percent go to industry 
and business, including financial institutions. The government garners 
only about 13 percent. Compensation is generally greater in academia 
and industry, and CBO, like other government agencies, is constrained 
in the salaries that it can offer.
    Another challenge of the market for economists is that recent 
graduates have skill sets that are separate and distinct from the skill 
sets of more experienced economists. Specifically, recent graduates 
have been trained in cutting-edge quantitative techniques, making them 
particularly suited to developing and maintaining complex economic 
models. In the past CBO has had success recruiting foreign nationals 
who contributed to our work while holding various types of visas and 
then converted to permanent residency or moved to other positions. 
Hence, CBO's Macroeconomic Analysis Division (and specifically the 
Fiscal Policy Studies Unit and Financial Markets Unit) has been 
particularly reliant on the work of foreign nationals.
                                 ______
                                 
                Question Submitted by Senator Mark Pryor

                            DIVERSITY STATUS

    Question. I would like to know how your efforts at diversity are 
going?
    Answer. As part of the Omnibus Appropriations Act of 2009, CBO, 
like the other legislative branch agencies, was asked to write a plan 
related to workforce diversity. CBO first enunciated a policy of 
maximizing diversity in recruitment and then completed a statistical 
analysis of its workforce to identify areas in which greater diversity 
efforts should be focused. The agency is in the process of writing its 
plan to address those areas; the plan should be finished by the first 
of June.

                          SUBCOMMITTEE RECESS

    Senator Nelson. So thank you. We will stand in recess.
    [Whereupon, at 4:40 p.m., Thursday, April 15, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
